<html>
<title> - PROTECTING AMERICA'S DEMOCRACY: ENSURING EVERY VOTE COUNTS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
       PROTECTING AMERICA'S DEMOCRACY: ENSURING EVERY VOTE COUNTS

=======================================================================


                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            AUGUST 28, 2020

                               __________

                           Serial No. 116-82

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                               
                U.S. GOVERNMENT PUBLISHING OFFICE 
43-955 PDF                WASHINGTON : 2021                                
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           Mark Walker, North Carolina
J. Luis Correa, California           Clay Higgins, Louisiana
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Max Rose, New York                   Mark Green, Tennessee
Lauren Underwood, Illinois           John Joyce, Pennsylvania
Elissa Slotkin, Michigan             Dan Crenshaw, Texas
Emanuel Cleaver, Missouri            Michael Guest, Mississippi
Al Green, Texas                      Dan Bishop, North Carolina
Yvette D. Clarke, New York           Jefferson Van Drew, New Jersey
Dina Titus, Nevada                   Mike Garcia, California
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Committee on Homeland 
  Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5

                               Witnesses

Ms. Jocelyn Benson, Secretary of State, State of Michigan:
  Oral Statement.................................................     8
  Prepared Statement.............................................     9
Mr. Mark Dimondstein, President, American Postal Workers Union, 
  AFL-CIO:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13
Ms. Tammy Patrick, Senior Advisor, Elections, Democracy Fund:
  Oral Statement.................................................    14
  Prepared Statement.............................................    15
Mr. Michael Adams, Secretary of State, Commonwealth of Kentucky:
  Oral Statement.................................................    21
  Prepared Statement.............................................    23


       PROTECTING AMERICA'S DEMOCRACY: ENSURING EVERY VOTE COUNTS

                              ----------                              


                        Friday, August 28, 2020

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 12:08 p.m., via 
Webex, Hon. Bennie G. Thompson (Chairman of the committee) 
presiding.
    Present: Representatives Thompson, Richmond, Payne, Rice, 
Correa, Torres Small, Rose, Underwood, Slotkin, Cleaver, 
Clarke, Titus, Watson Coleman, Barragan, Demings, Rogers, 
Katko, Lesko, Joyce, Bishop, and Garcia.
    Chairman Thompson. The Committee on Homeland Security will 
come to order. Without objection, the Chair is authorized to 
declare the committee in recess at any point.
    Good afternoon. Before I begin today, I want to extend my 
deepest sympathies to those who have been affected by the 
California wildfires and Hurricane Laura. Hurricane Katrina 
devastated the Gulf Coast 15 years ago this week. The storm 
caused terrific damage and upended people's lives, but through 
perseverance, hard work, and unyielding oversight of the 
Federal disaster response apparatus, we built back better.
    As the residents of communities affected by Hurricane Laura 
assess the damage to their homes, they can rest assured that 
the committee will hold the Federal Emergency Management Agency 
and its Federal partners accountable by making sure they 
provide the help communities need to get back on their feet.
    A key lesson from Hurricane Katrina is that the initial 
response was hampered by the inept leadership of an 
inexperienced, unqualified Presidential campaign donor who had 
been appointed to head FEMA, the Nation's emergency manager. 
The hurricane served as an important reminder that Federal 
agencies should be led by experienced people committed to the 
mission, especially in times of crisis.
    Today, the country is in crisis once again, and inept 
leadership is stalling the Nation's response. A global pandemic 
has crippled the Nation since March, dramatically changing how 
Americans live and work and keeping hundreds of thousands of 
children out of school. Hurricanes continue to batter coastal 
communities and wildfires are ravaging the West Coast. In the 
midst of all of this, a Presidential election is rapidly 
approaching.
    During this time of crisis, Americans are depending on the 
Postal Service to deliver life-saving prescriptions, essential 
goods and, importantly, the election ballots. The President, 
however, is waging an attack on the Postal Service to serve his 
own political interests. For instance, the President has told 
the public that vote by mail is rigged, illegal, or fraudulent, 
over 100 times since March, undeterred by the fact that he has 
been contradicted by DHS and the intelligence community.
    The administration has refused to provide funding to the 
Postal Service's needs to ensure it can continue to deliver for 
this Nation over the long term. The President has openly 
acknowledged that he is depriving the Postal Service of 
additional funding because he is concerned that expanding 
voting opportunities will hurt reelection chances.
    To make matters worse, the Postal Service is now being led 
by a Presidential campaign donor who does not even know how 
much it costs to mail a postcard. The Postmaster General 
implemented sweeping operational changes, and the Postal 
Service's own internal documents even confirm these changes 
have slowed mail service across this country this summer. These 
changes could slow the delivery of ballots during the fall 
elections just as millions of Americans are choosing to vote by 
mail for the first time to avoid possible exposure to COVID-19.
    Although the Postmaster General has since paused his 
restructuring plan, he has refused to roll back changes that 
have already been implemented. It is time for the Postmaster 
General to demonstrate to the American people that he is 
committed to the mission and fit for the challenges ahead and 
that the Postal Service will do whatever it takes to get 
election mail delivered on time. We cannot afford to have 
another heck-of-a-job moment.
    More than that, the President must stop peddling 
disinformation that could suppress voter participation and 
undermine confidence in election results. It sets a bad tone.
    Just yesterday, Michigan's secretary of state, who is 
testifying before us today, alerted voters to a racially-
charged robocall using lies to discourage minority voters from 
voting by mail. This must stop. We cannot allow disinformation 
to divide Americans and destroy our democracy.
    At the same time, people who prefer to vote in person must 
have the opportunity to do so safely and securely. That means, 
among other things, there must be enough polling places that 
are easily accessible to all voters, particularly low-income 
voters who are less able to travel long distances to polling 
places. No one should be disenfranchised because it is too hard 
to get to a polling place or because the line is too long.
    Before I close, I want to note that the House passed the 
HEROES Act in May and the Delivering for America Act last week. 
Both are essential to our elections this November, and I urge 
the Senate to act on them.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                            August 28, 2020
    Before I begin today, I want to extend my deepest sympathies to 
those who have been affected by the California wildfires and Hurricane 
Laura. Hurricane Katrina devastated the Gulf Coast 15 years ago this 
week. The storm caused horrific damage and upended people's lives. But 
through perseverance, hard work, and unyielding oversight of the 
Federal disaster response apparatus, we built back better.
    As the residents of communities affected by Hurricane Laura assess 
the damage to their homes, they can rest assured that this committee 
will hold the Federal Emergency Management Agency and its Federal 
partners accountable by making sure they provide the help communities 
need to get back on their feet. A key lesson from Hurricane Katrina is 
that the initial response was hampered by the inept leadership of an 
inexperienced, unqualified Presidential campaign donor who had been 
appointed to head FEMA, the Nation's emergency manager. The Hurricane 
served as an important reminder that Federal agencies should be led by 
experienced people--committed to the mission--especially in times of 
crisis.
    Today, the country is in crisis once again, and inept leadership is 
stalling the Nation's response.
    A global pandemic has crippled the Nation since March, dramatically 
changing how Americans live and work and keeping hundreds of thousands 
of children out of school. Hurricanes continue to batter coastal 
communities and wildfires are ravaging the West Coast. In the midst of 
all this, a Presidential election is rapidly approaching.
    During this time of crisis, Americans are depending on the Postal 
Service to deliver life-saving prescriptions, essential goods, and 
importantly, their election ballots. The President, however, is waging 
an attack on the Postal Service to serve his own political interests. 
For instance, the President has told the public that vote by mail is 
rigged, illegal, or fraudulent over 100 times since March, undeterred 
by the fact that he has been contradicted by DHS and the intelligence 
community.
    The administration has refused to provide funding the Postal 
Service needs to ensure it can continue to deliver for this Nation over 
the long term. The President has openly acknowledged that he is 
depriving the Postal Service of additional funding because he is 
concerned that expanding voting opportunities will hurt his re-election 
chances. To make matters worse, the Postal Service is now being led by 
a Presidential campaign donor who does not even know how much it costs 
to mail a postcard.
    The Postmaster General implemented sweeping operational changes, 
and the Postal Service's own internal documents confirm these changes 
have slowed mail service across the country this summer. These changes 
could slow the delivery of ballots during this fall's election--just as 
millions of Americans are choosing to vote by mail for the first time 
to avoid possible exposure to COVID-19.
    Although the Postmaster General has since paused his restructuring 
plan, he has refused to roll back changes that have already been 
implemented. It is time for the Postmaster General to demonstrate to 
the American public that he is committed to the mission and fit for the 
challenges ahead--and that the Postal Service will do whatever it takes 
to get election mail delivered on time We cannot afford to have another 
``heck of a job'' moment. More than that, the President must stop 
peddling disinformation that could suppress voter participation and 
undermine confidence in election results. It sets a bad tone.
    Just yesterday, Michigan's Secretary of State--who is testifying 
before us today--alerted voters to a racially charged robocall using 
lies to discourage minority voters from voting by mail. This must stop. 
We cannot allow disinformation to divide Americans and destroy our 
democracy. At the same time, people who prefer to vote in person must 
have the opportunity to do so safely and securely.
    That means, among other things, there must be enough polling places 
that are easily accessible to all voters, particularly low-income 
voters who are less able to travel long distances to polling locations. 
No one should be disenfranchised because it is too hard to get to a 
polling place or because the line is too long.
    Before I close, I want to note that the House passed the HEROES Act 
in May and the Delivering for America Act last week. Both are essential 
to our elections this November, and I urge the Senate to act on them.

    Chairman Thompson. With that, I recognize the gentleman 
from Alabama, Ranking Member Rogers, for any opening statement 
he may have.
    Mr. Rogers. Thank you, Mr. Chairman. Can you hear me?
    Chairman Thompson. Yes, I can hear you.
    Mr. Rogers. Great.
    First, I want to congratulate Representative Mike Garcia on 
his election to Congress and his appointment to the Committee 
on Homeland Security. Prior to Congress, Representative Garcia 
graduated from the Naval Academy, flew over 30 combat missions 
during Operation Iraqi Freedom and was a successful businessman 
in the private sector. His experiences and wealth of knowledge 
will surely benefit the committee.
    Thank you for your continued service to our Nation, Mr. 
Garcia.
    Mr. Chairman, I admit I am disappointed that we are holding 
this hearing today. Lately, this committee has had a tendency 
to hold hearings outside of our jurisdiction, and today is no 
exception. We have no oversight or legislative role over the 
United States Postal Service. The committee of jurisdiction 
held a hearing on this topic earlier this week. The House 
already rushed through legislation over the weekend, which 
leaves me wondering what we are doing here today.
    We have already held 5 election security hearings delving 
into issues in our jurisdiction, such as protecting election 
infrastructure through foreign interference and cybersecurity 
threats. But based on today's testimony, we won't be talking 
about actual election security.
    It is clear the only reason we are having this hearing is 
to further the Democrats' crazy postal conspiracy. Despite what 
the Democrats say, the Postmaster General is not conspiring 
with the President to suppress the vote. Actions taken to 
retire sorting machines and reallocate collection boxes were 
put in place long ago before the current Postmaster General 
took over. In fact, under the Obama administration, over 12,000 
collection boxes were removed and more than 80 mail facilities 
were closed.
    One of the Democrats' favorite games these days is to 
oppose anything that happens under President Trump, even when 
President Obama did the same thing. The facts are the Postal 
Service--the Post Office is more than capable of delivering 
ballots to voters and returning them to election officials in a 
timely manner. The problem isn't with the Post Office; it is 
with the States.
    As the Post Office explained in 3 separate letters to State 
election officials this year, setting unrealistic deadlines for 
ballot requests and submissions could result in ballots not 
being delivered in time to be counted.
    You can blame the Post Office all you want, but when States 
like New York mail out over 30,000 ballots the day before the 
election, not even Superman could deliver them on time.
    The fact is there is no perfect way to vote. Each method 
poses risks for fraud, manipulation, or error; but vote by mail 
is the least secure method of voting that we have. Vote by mail 
requires election officials to send ballots to every voter, 
regardless of whether the voter requested one.
    This is a tremendous administrative undertaking, especially 
for States trying to implement the system before November. It 
took Washington State nearly 10 years to fully implement the 
system. One of the biggest challenges is ensuring voting rolls 
are up to date before the ballots are mailed out. If they are 
not, live ballots will be sent to individuals who may not be 
eligible to vote or may even not be alive, for that matter. 
This is a real problem.
    Los Angeles was recently ordered by a court to remove 1.5 
million inactive voters from their rolls. Once a vote-by-mail 
ballot leaves the election officials, nothing is done to ensure 
it is received by the right voter, and that is only exacerbated 
when States allow ballots to be returned to unmonitored drop 
boxes. With no way to ensure the chain of custody, drop boxes 
only encourage election fraud and illegal ballot harvesting.
    We should also worry about the staggering number of ballots 
rejected by vote-by-mail elections. In California this year, 
over 100,000 vote-by-mail ballots were rejected. The Washington 
Post reports that 534,731 ballots were disqualified in 23 
States in the 2020 primary season. NPR reports that 558,000 
ballots were rejected in 30 States. All of these were vote-by-
mail ballots, where everyone worried about making sure that 
every vote counts. It should scare you.
    It should also scare you that many States have procedures 
in place that enable ballots to be returned well after election 
day. In New York, it took 6 weeks to certify the primary 
election results for 2 of our colleagues. In California, it 
currently takes over a month to certify election results.
    How long will it take States to certify results this 
November? How long will Americans wait to know who their 
President will be because of vote-by-mail issues? CISA has 
noted that delayed election results present a prime opportunity 
to spread disinformation and undermine public confidence in the 
election.
    If Democrats truly want to ensure every vote counts and 
protect the integrity of our election process, they should end 
this ridiculous postal conspiracy. They should work with us to 
encourage States to put in place realistic deadlines for mail-
in voting, pass laws to prohibit ballot harvesting, and 
implement procedures to certify election results quickly and 
accurately.
    Mr. Chairman, it is important that one message leaves this 
committee today, and that is, every eligible American has the 
right to vote and responsibly to do so this November.
    With that, I thank you and yield back.
    [The statement of Ranking Member Rogers follows:]
                Statement of Ranking Member Mike Rogers
    Thank you, Mr. Chairman.
    I first want to congratulate Representative Mike Garcia on his 
election to Congress and his appointment to the Committee on Homeland 
Security.
    Prior to Congress, Representative Garcia graduated from the Naval 
Academy, flew over 30 combat missions during Operation Iraqi Freedom, 
and was a successful businessman in the private sector.
    His experiences and wealth of knowledge will surely benefit this 
committee. Thank you for your continued service to our Nation.
    Mr. Chairman, I am disappointed that we are holding this hearing 
today.
    This committee has a tendency to hold hearings outside of our 
jurisdiction, and today is no exception. We have no oversight or 
legislative role over the United States Postal Service. The committee 
of jurisdiction held a hearing on this topic earlier this week. The 
House already rushed through legislation over the weekend, which leaves 
me wondering what we're doing here today.
    We've already held 5 election security hearings delving into issues 
in our jurisdiction, such as protecting election infrastructure from 
foreign interference and cybersecurity threats. But based on today's 
testimony, we won't be talking about actual election security.
    It's clear the only reason we're having this hearing is to further 
the Democrat's crazy postal conspiracy.
    Despite what the Democrats say, the Postmaster General is not 
conspiring with the President to suppress the vote.
    Actions taken to retire sorting machines and reallocate collection 
boxes were put in place long before the current Postmaster General took 
over.
    In fact, under the Obama administration, over 12,000 collection 
boxes were removed and more than 80 mail facilities were closed.
    One of the Democrats favorite games these days is to oppose 
anything that happens under President Trump, even when President Obama 
did the same thing.
    The facts are that the Post Office is more than capable of 
delivering ballots to voters and returning them to election officials 
in a timely manner.
    The problem isn't with the Post Office. It's with the States.
    As the Post Office explained in 3 separate letters to State 
election officials this year, setting unrealistic deadlines for ballot 
requests and submissions could result in ballots not being delivered in 
time to be counted.
    You can blame the Post Office all you want, but when States like 
New York mail out over 30,000 ballots the day before an election, not 
even Superman could deliver them on time.
    The fact is there is no perfect way to vote. Each method poses risk 
for fraud, manipulation, or error.
    But vote by mail has to be the least secure method we have of 
voting.
    Vote by mail requires election officials to send ballots to every 
voter, regardless of whether the voter requested one.
    This is a tremendous administrative undertaking, especially for 
States trying to implement this system before November. It took 
Washington State, nearly 10 years to fully implement its system.
    One of the biggest challenges is ensuring voting rolls are up-to-
date before any ballots are sent. If they're not, live ballots will be 
sent to individuals who may not be eligible to vote, or may not even be 
alive for that matter.
    This is a real problem.
    Los Angeles was recently ordered by a court to remove 1.5 million 
inactive voters from their rolls.
    Once a vote-by-mail ballot leaves the election officials, nothing 
is done to ensure it's received by the right voter. And that is only 
exacerbated when States allow ballots to be returned in unmonitored 
drop boxes.
    With no way to ensure chain of custody, drop boxes only encourage 
election fraud and illegal ballot harvesting.
    We should also worry about the staggering number of ballots 
rejected in vote-by-mail elections.
    In California this year, over 100,000 vote-by-mail ballots were 
rejected.
    The Washington Post reports that ``534,731 ballots were 
disqualified in 23 States in the 2020 primary season.''
    NPR reports that ``558,032 ballots that were rejected in 30 
States.''
    All of these were vote-by-mail ballots.
    For everyone worried about making sure that every vote counts, this 
should scare you.
    It should also scare you that many States have procedures in place 
that enable ballots to be returned well after election day.
    In New York, it took 6 weeks to certify the primary election 
results for 2 of our colleagues. In California, it currently takes over 
a month to certify election results.
    How long will it take States to certify the results this November? 
How long will Americans have to wait to know who their President will 
be because of vote-by-mail issues?
    CISA has noted that delayed election results present a prime 
opportunity to spread disinformation and undermine public confidence in 
the election.
    If Democrats truly want to ensure every vote counts and protect the 
integrity of our election process, they should end this ridiculous 
postal conspiracy.
    They should work with us to encourage States to----
  <bullet> put in place realistic deadlines for mail-in voting;
  <bullet> pass laws to prohibit ballot harvesting; and
  <bullet> implement procedures to certify election results quickly and 
        accurately.
    Mr. Chairman, it's important that one message leaves this committee 
today.
    And that is: Every eligible American has the right to vote and a 
responsibility to do so this November.
    I yield back.

    Chairman Thompson. I thank the Ranking Member.
    I will remind you that the committee will operate according 
to the guidelines laid out by the Chairman and Ranking Member 
in our July 8 colloquy.
    I now welcome our panel of witnesses. First, I would like 
to welcome Ms. Jocelyn Benson, who is Michigan's 43rd secretary 
of state.
    Now, if Ms. Slotkin is on this meeting call----
    Ms. Slotkin. I am here, Mr. Chairman.
    Chairman Thompson [continuing]. I would like to recognize 
the gentlelady from Michigan for the introduction.
    Ms. Slotkin. Great. Thank you, Mr. Chairman.
    I have the real pleasure of introducing my friend and 
fierce champion for Michigan's voters, Michigan secretary of 
state, Jocelyn Benson. Secretary Benson was sworn in as our 
43rd secretary of state in January 2019, and she has really 
worked tirelessly since then to protect Michiganders' right to 
vote and the integrity of our elections.
    She is a Marshall Scholar and graduate of Harvard Law, an 
expert on civil rights law and election law specifically. 
Secretary Benson served as the dean of the Wayne State 
University Law School in Detroit where she was appointed at the 
age of 36, the youngest woman in history to lead a top 100 
accredited law school.
    Secretary Benson has spent her career working to protect 
voting rights and election integrity. This dates back to her 
work advocating for the passage of Help America Vote Act. She 
was an investigative journalist and worked with the NAACP Legal 
Defense Fund.
    She is also the cofounder of the Military Spouses of 
Michigan, a network dedicated to providing support and services 
for military spouses and their children. Secretary Benson is 
intimately familiar with this because she is a military spouse 
herself and something that I hope that she'll address today. In 
2012, when her husband was serving in Afghanistan, he had his 
own absentee ballot returned undeliverable.
    So I am thrilled that Secretary Benson is here to share her 
expertise and her experience overseeing Michigan's elections 
with the committee and look forward to her testimony.
    Thanks so much.
    Chairman Thompson. Thank you very much.
    We also have Mark Dimondstein, who has been the president 
of the American Postal Workers Union since 2013. APW represents 
more than 200,000 Postal Service employees and about 1,500 
employees in the private-sector mail industry.
    Next, we will hear from Ms. Tammy Patrick, a senior advisor 
to the elections program at Democracy Fund. There she leads an 
effort to foster voter-centric election systems and provide 
election officials with the tools and knowledge they need to 
best serve their voters.
    Finally, we will have Michael Adams, the 77th secretary of 
state from the State of Kentucky. I appreciate you joining us 
today.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I now ask each witness to summarize his or her statement 
for 5 minutes, beginning with Secretary Benson.

   STATEMENT OF JOCELYN BENSON, SECRETARY OF STATE, STATE OF 
                            MICHIGAN

    Ms. Benson. Thank you, Chairman. Thank you, Congresswoman 
Slotkin, for your very kind introduction.
    Chairman Thompson and Members of the Committee on Homeland 
Security, thank you for inviting me here today.
    Democracy is a team sport, and every single one of us here 
can agree that we want this fall election to be successful. We 
want to vote, and we want our votes to be fully and equally 
accessible to every voter. We want the system to be secure and 
protected against any threats, foreign and domestic, and we 
want every citizen to have full faith that the election results 
are a complete and accurate reflection of the will of the 
people.
    The coronavirus pandemic, along with what seems to be near-
constant and escalating rhetoric and misinformation about our 
elections, has brought historic pressures on our ability in the 
States to meet this goal. In fact, just yesterday, as was 
mentioned, my office had to correct an unconscionable attempt 
to suppress voting through a robocall targeting voters in the 
city of Detroit that falsely threatened that voting by mail 
would put voters' personal information at risk with creditors, 
law enforcement, and health agencies.
    But meet the challenge ahead of us we must, and there are 
solutions to ensure that we can. I am here today to talk about 
those solutions and to emphasize that your partnership and the 
partnership of the U.S. Postal Service is an important part of 
ensuring that success.
    Now, earlier this month, we held a State-wide primary in 
Michigan, which serves the blueprint for running safe, secure, 
accessible elections in the midst of the COVID-19 pandemic. We 
learned that first it is very clear that even in the midst of a 
global pandemic, people want to vote. More than 2.5 million 
Michigan citizens voted in our August primary, and that is the 
highest turnout that we have ever had for an August primary in 
our State.
    Next, citizens need to have a clear, reliable, and safe 
option to vote early, whether in person or by mail. In 
Michigan, more than 1.6 million citizens voted prior to 
election day. Now, importantly, this amount surpassed our 
State's previous record of nearly 1.3 million voters voting by 
mail or prior to election day which was set in the 2016 general 
election. This dramatic increase underscores the importance of 
expanding absentee and early voting options to all citizens and 
ensuring they know exactly how to exercise those options.
    Finally, voters must have the choice to vote in person on 
election day without risking their health. Throughout our 
State, traditional polling places remained open for our August 
primary. We did no consolidations, and this will similarly be 
the case for November 3. Each precinct was staffed by many of 
the new election workers we recruited and trained State-wide, 
which to date has recruited close to 10,000 new election 
workers. Our polling places were clean, calm, accessible, and 
sanitized repeatedly throughout the day. Lines were short or 
nonexistent. Social distancing guidelines eliminated the 
possibility of crowding, and election workers made good use of 
the PPE and cleaning supplies that were bought with Federal 
CARES Act funds and provided to every local jurisdiction in our 
State.
    So our primary success demonstrated that proactive, data-
driven planning, and collaboration at the State and local 
levels, supported by Federal resources, can result in 
successful elections this year. This is a good sign for 
November.
    However, the emerging challenges in efficient postal 
delivery with the United States Postal Service have created 
enormous uncertainties for citizens in our State who seek to 
utilize an otherwise safe, secure, and reliable method to vote 
absentee.
    In Michigan, we are going to do our part as partners in 
this effort. For example, earlier this year, we prioritized 
coordination and communication with our State Postal Service 
leadership. This led to numerous operational improvements for 
us and for them, a true partnership. For example, we redesigned 
our ballot envelopes to better move through the system as 
quickly as possible and reduce errors. We are also placing 
close to 1,000 secure monitored ballot drop boxes with clear 
procedures and protections in place regarding chain of custody 
of ballots throughout the State for voters to utilize to return 
their ballots.
    But at a time when record number of citizens want to vote 
and want to vote by mail, nothing can truly replace the full 
utility of a functioning Postal Service. So we hope the Federal 
Government prioritizes fixing these issues or we face 
potentially significant challenges come November.
    Again, you know, to us, this is--we are all in this 
together. Democracy is a team sport, and what our data and what 
our experience in Michigan shows, that if we can put 
partisanship aside and just work together to succeed in holding 
elections that are secure, accessible, and on schedule, if we 
fight back against misinformation and speak the truth to our 
voters, it is possible, it is doable to run these elections 
securely and safely in November. Our voters, of course, should 
demand no less from all of us.
    Thank you again for the opportunity to testify today.
    [The prepared statement of Ms. Benson follows:]
                  Prepared Statement of Jocelyn Benson
                            August 28, 2020
    Thank you, Chairman Thompson, and thank you Members of the 
Committee on Homeland Security for inviting me here to speak today.
    Democracy is a team sport. Every single one of us here today can 
agree that we want this fall's election to be successful. We want the 
vote to be fully and equally accessible to every voter, we want the 
system to be secure and protected against any threats, foreign or 
domestic, and we want every citizen to have full faith that the 
election results are a complete and accurate reflection of the will of 
the people.
    Between a global pandemic and what seems near constant and 
escalating rhetoric and misinformation about our elections, 2020 has 
brought historic pressures on our ability to meet this goal. But meet 
this goal we must, and solutions are there to ensure that we do. I am 
here today to talk about those solutions, and to emphasize that your 
partnership--and the partnership of the entire Federal Government--is 
an important part of ensuring that success.
 running a successful election during a pandemic: lessons learned from 
                       michigan's august primary
    Earlier this month we held a State-wide primary in Michigan which 
served as a blueprint for running safe, secure, accessible elections 
during the COVID-19 pandemic while also highlighting critical needs 
that, if addressed, can put every State on a path toward successful 
November elections.
    First, it's clear that even in the midst of a global pandemic, 
citizens want to vote. More than 2.5 million Michigan citizens voted in 
our August primary, which--despite the absence of any contested State-
wide or other high-profile races--was more people than ever before in 
any August primary in our State's history.
    Next, citizens need to have a clear, reliable, and safe option to 
vote early--whether in person or by mail. In Michigan, record numbers 
of citizens chose to vote prior to election day, with more than 1.6 
million citizens requesting their ballots early and returning them 
either through the mail or in person at their clerk's office prior to 
election day. Importantly, this amount surpassed our State's previous 
record of nearly 1.3 million set in the 2016 general election. The 
dramatic increase underscores the importance of expanding of absentee 
and early voting options to all citizens, and ensuring they know about 
how to exercise those options.
    In May, my decision to send every registered voter a paper 
application to request to have their ballot mailed to them prior to 
election day, along with the launch of a secure on-line portal for 
citizens to request to receive their ballots through the mail, were 
critical to educating voters about how to vote safely and remotely 
during a pandemic. Once received voters could return ballots through 
the mail, at one of our new secure drop boxes across the State, or in-
person with their local clerk. While this drew inaccurate and 
inappropriate criticism from the President, at less than a dollar per 
voter, it was an extremely cost-effective way to inform voters of their 
right and ability to vote safely during the pandemic, and had the 
secondary benefit of serving as a State-wide mailing to improve the 
accuracy of our voter rolls. We are now sending reminder postcards to 
active voters who have still not applied to vote absentee, and have 
implemented a State-wide system to enable every voter to track their 
ballot to give them the confidence that it was received on time. The 
time-tested security provision in place of signature verification will 
continue to ensure we protect the system against any attempts of fraud. 
I must note, however, that mail-voting fraud is exceedingly rare. 
According the Heritage Foundation's own database on average in each 
State it occurs only once every 6 years. As millions of ballots are 
cast by mail every election cycle, this means that the incidence of 
mail-voting fraud is infinitesimal. There is simply no evidence 
suggesting that it will be any different this year.
    Finally, voters also need to be able to have the choice to vote in 
person on election day without risking their health. Throughout our 
State traditional polling places remained open for our August primary, 
staffed by many of the new election workers we recruited and trained 
through our State-wide Democracy MVP program--which to date has 
recruited close to 10,000 new election workers. The locations were 
clean, calm, accessible, and sanitized repeatedly throughout the day. 
Lines were short or nonexistent, social distancing guidelines 
eliminated the possibility of crowding, and election workers made good 
use of the personal protective equipment and cleaning supplies bought 
with Federal CARES Act funds and provided to every jurisdiction by the 
State. Importantly, we even had election workers on standby to be able 
to account for no-shows or last-minute cancellations and provide new 
volunteers to ensure every jurisdiction was staffed.
    Our primary election demonstrated that proactive, data-driven 
planning and tireless work by State and local election officials, 
supported by Federal resources, results in elections that are safe, 
secure, accessible, and on schedule. This is a good sign for November, 
and our experiences this year have also underscored needed adjustments 
that must take place at the local, State, and National level in the 
next 3 months to fully prepare for every contingency.
 running a successful election during a pandemic: the plan for november
    We've now experienced first-hand why we must enact State policies 
that are in place in at least 18 other States, but not in Michigan, 
that allow clerks to begin the processing of absentee ballots prior to 
election day. Election workers should begin election day counting 
ballots instead of unnecessarily spending hours opening envelopes and 
preparing ballots for tabulators. This enables more efficient reporting 
of election results and avoids unnecessary human error.
    Our experience also underscores the critical need of recruiting and 
training a large number of new election workers to deploy in November. 
Partnerships with local businesses, large employers, and sports teams, 
coupled with an aggressive State-wide recruiting effort, enabled us to 
fill vacancies leading up to and on election day itself, ensuring 
sufficient personnel to open precincts and staff absent-voter-ballot 
counting boards.
    Earlier this year, we prioritized coordination and communication 
with our State Postal Service leadership. This led to numerous 
operational improvements on both sides, a true partnership. For 
example, our Bureau of Elections redesigned our ballot envelopes to 
better align with USPS standards. This enables ballots to go as quickly 
as possible through USPS systems, and has reduced the incidence of 
ballots going undelivered and being returned to voters. The new design 
also more clearly shows where voters must sign the envelope--a critical 
security measure of absentee voting--reducing the potential for voter 
error leading to ballot rejection.
    Now, the emerging challenges in efficient postal delivery with the 
United States Postal Service, exacerbated by a recent reduction in 
overtime allowances and other changes, have created enormous 
uncertainties for citizens seeking to utilize an otherwise safe, 
secure, and reliable method to vote absentee. Like other States, 
Michigan has invested significant time and resources into adjusting its 
election infrastructure because it believes, and continues to believe, 
these changes will strengthen its partnership with the Postal Service 
in improving the voting experience for all Michiganders. It is critical 
that this partnership continue.
    In Michigan we're planning for every contingency, including 
purchasing and placing close to 1,000 secure ballot drop boxes 
throughout the State for voters to utilize. We are also pushing for 
policies to ensure valid ballots postmarked by election day and 
received within a reasonable time will still count, ensuring that 
voters are not penalized for failures in Federal leadership. (Notably, 
in our August primary, at least 6,400 mailed ballots were received in 
the days following election day and therefore were unable to be 
counted. We anticipate this number could at least double if changes are 
not made prior to November). At this point nothing can truly replace 
the utility of a fully functioning Postal Service. The Federal 
Government must prioritize fixing these issues or face a potentially 
significant election crisis come November.
    In fact, every need for November can be met with Federal investment 
and support. The Federal CARES Act funding was an important down 
payment on preparing our democracy for November that every State in the 
country has embraced and utilized. But it wasn't enough. Congress needs 
to act swiftly, not only to fully fund our Postal Service, but to 
provide needed additional funds to States as we continue to prepare for 
record breaking voter turnout this November.
    Again, democracy is a team sport. If we work together we can 
succeed in holding elections this fall that are secure, on schedule, 
and an accurate reflection of the will of the people. It's possible, 
it's doable, and our voters should demand no less from their 
government.
    Thank you again for the opportunity to testify today.

    Chairman Thompson. Thank you very much for your testimony.
    I now recognize Mr. Dimondstein to summarize his statement 
for 5 minutes.

   STATEMENT OF MARK DIMONDSTEIN, PRESIDENT, AMERICAN POSTAL 
                     WORKERS UNION, AFL-CIO

    Mr. Dimondstein. Good afternoon, Chairman Thompson, Ranking 
Member Rogers, and Members of the committee. My name is Mark 
Dimondstein, and I am the president of the American Postal 
Workers Union. Our union represents about 200,000 of the 
630,000 dedicated postal employees who work to serve every 
community in the country each day. I thank you for the 
opportunity to share our perspective in the role of the public 
Postal Service in ensuring that every vote counts.
    In this challenging time of the pandemic, our very right to 
vote depends on millions of people. Our access to the ballot 
box will depend on vote by mail. Yet there has been a two-prong 
assault on absentee/vote-by-mail voting, and they are one and 
the same.
    First is the unfounded argument that the service does not 
have the capacity to deliver mail-in ballots during this 
election season. Postal workers are up to the task, and the 
Postal Service has ample resources to safely and securely 
accept and deliver every mail ballot it receives, provided the 
States who run the elections do their very challenging jobs and 
extra challenging during this pandemic.
    Postal workers have proudly facilitated mail-in voting 
since the Civil War. We also know that the increase of mail 
ballots expected can be easily handled even if all 150 million 
voters in the country receive and return their ballots by mail. 
On a daily basis, postal workers collect, sort, and deliver 
almost 500 million pieces of mail. During a typical holiday 
season, we handle as many as 3 billion, with a B, cards and 
letters in a week. National mailings like the recent CDC 
coronavirus guidelines are routinely processed and delivered 
without concern.
    Second is the charge that vote by mail is fraudulent. Vote 
by mail has proven to be an incredibly safe and secure method 
of voting. More than 5 States conduct their elections entirely 
by mail. Since 2000, more than 250 million votes have been cast 
by mail. In Oregon's 19 years of conducting all-mail elections, 
more than a hundred million votes have been cast by mail with 
only 15 cases of voter fraud, less than 1 per year.
    Claims that vote by mail is rife with fraud are not only 
simply false, they are also an offense to postal workers who 
take our oath of office and our commitment to preserve the 
sanctity of the mail seriously. It is in our DNA to treat the 
mail like it is our own, and handling election mail properly is 
even more of a sacred obligation with postal workers.
    While we have certainly had our differences in his short 
tenure with the Postmaster General, Louis DeJoy, last week, he 
did commit to investing resources to ensure vote by mail's 
success and has thus rejected the voter suppression tactics of 
some of the vote by mail's most vocal critics,
    Our union will hold the Postmaster General to his words. 
We, along with the other postal unions, will participate in a 
joint task force with management to ensure our members' 
expertise is central to the Postal Service's plans for ensuring 
that every ballot we receive is delivered safely, securely, and 
in a timely manner.
    In recent weeks, much attention has been shone on the 
Postmaster General's policies, which have slowed down the mail. 
Our union has been amongst the most vocal critics of these 
changes. Just this week, we led hundreds of demonstrations 
across the country, demanding that the PMG's service cuts and 
delay causing policies be reversed and that Congress pass the 
emergency COVID-related funding request made by the bipartisan 
Postal Board of Governors.
    We will continue to press, on a nonpartisan basis, the 
Postal Service and Congress to ensure that the country receives 
the quality and speedy service it deserves and not just during 
the election season and not just for the vitally important 
ballots of election mail.
    But with respect specifically to mail-in voting, our 
message to the many millions of voters who will rely on the 
Postal Service this year to access the ballot box is simple: 
Request your ballot early and return it quickly. We have the 
capacity and the commitment to get your ballot where it 
belongs. If voters find themselves short of the time frames it 
takes to get the ballot returned through the mail, many States 
have the important option of dropping the mail ballot at secure 
election drop boxes.
    With that, I thank you for the opportunity to share postal 
workers' commitments to the democratic process with you, and I 
look forward to any questions at the appropriate time.
    [The prepared statement of Mr. Dimondstein follows:]
                 Prepared Statement of Mark Dimondstein
                            August 28, 2020
    Good afternoon Chairman Thompson, Ranking Member Rogers, and 
Members of the committee. My name is Mark Dimondstein, and I am the 
president of the American Postal Workers Union. Our union represents 
200,000 of the 630,000 dedicated postal workers who work to serve every 
community in the country each day. Thank you for the opportunity to 
share our union's perspective.
    In this challenging time of the pandemic, our very right to vote, 
to access to the ballot box, will depend on vote by mail.
    Yet, there has been a two-pronged assault on absentee voting, i.e. 
vote by mail.
    First is the unfounded argument that the Service does not have the 
capacity to deliver mail-in ballots during this election season. Postal 
workers are up to the task and the Postal Service has ample resources 
to safely and securely accept and deliver every mail ballot it 
receives, provided the States who run the elections do their job.
    Postal workers have proudly facilitated mail-in voting since the 
Civil War. We also know that the increase of mail ballots expected can 
be easily handled, even if all 150 million voters in the country 
receive and return their ballot by mail. On a daily basis, postal 
workers collect, sort, and deliver nearly 500 million pieces of mail. 
During a typical holiday season, we handle as many as 3 billion cards 
and letters in a week. National mailings, like the recent CDC 
coronavirus guidelines, are routinely processed and delivered without 
concern.
    Second is the charge that vote by mail is fraudulent. Vote by mail 
has proven to be an incredibly safe and secure method of voting. More 
than 5 States conduct their elections entirely by mail. Since 2000, 
more than 250 million votes have been cast by mail. In Oregon's 19 
years conducting all-mail elections, more than 100 million votes have 
been cast with only 15 cases of voter fraud, less than 1 per year.
    Claims that vote by mail is rife with fraud are not only simply 
false, they're also an offense to the postal workers who take our oath 
of office and our commitment to preserve the sanctity of the mail 
seriously. It's in our DNA to treat the mail like it's our own, and 
handling election mail properly is even more of a sacred obligation to 
postal workers.
    While we have certainly had our differences in his short tenure, 
the Postmaster General last week committed to investing resources to 
ensure vote by mail's success and has thus rejected the voter 
suppression tactics of some of vote by mail's most vocal critics.
    Our union will hold the Postmaster General to his words. We, along 
with the other postal unions, will participate in a joint task force 
with management to ensure our members' expertise is central to the 
Postal Service's plans for ensuring that every ballot we receive is 
delivered safely, securely, and in a timely manner.
    In recent weeks, much attention has been shone on the Postmaster 
General's policies which have slowed down the mail. Our union has been 
among the most vocal critics of these changes. Just this week, we led 
hundreds of demonstrations across the country, demanding that the PMG's 
service cuts and delay-causing policies be reversed and that Congress 
pass the emergency COVID-related funding request made by the bipartisan 
Postal Board of Governors.
    We will continue to press the Postal Service and Congress to ensure 
that the country receives the quality and speedy service it deserves 
and not just during this election season and not just for vitally 
important election mail.
    But with respect to mail-in-voting in particular, our message to 
the many millions of voters who will rely on the Postal Service this 
year to access the ballot box is simple: Request your ballot early and 
return it quickly. We have the capacity and the commitment to get your 
ballot where it belongs. If voters find themselves short of the time 
frames it takes to get a ballot returned through the mail, many States 
have the important option of dropping the mail ballot at secure 
election drop boxes.
    I thank you for the opportunity to share postal workers' 
commitments to the democratic process with you, and I look forward to 
your questions.

    Chairman Thompson. Thank you very much for your testimony.
    I now recognize Ms. Patrick to summarize her statement for 
5 minutes.

    STATEMENT OF TAMMY PATRICK, SENIOR ADVISOR, ELECTIONS, 
                         DEMOCRACY FUND

    Ms. Patrick. Thank you, Honorable Chairman Thompson, 
Ranking Member Rogers, and Members of the committee for asking 
me here today to share with you how election officials have 
been preparing for the upcoming election, the challenges they 
are facing, and concerns that some of them have over what is 
happening under the new leadership at the United States Postal 
Service.
    I got into the field of election administration in Arizona 
almost 20 years ago because I was concerned with what I saw, 
with what I was hearing. Voters were being told that machines 
were being hacked, votes flipped, the system was rigged, that 
fraud was rampant. I was concerned because I saw turnout 
dwindling, apathy growing, and our democracy slowly slipping 
away.
    In this moment, 4 basic necessities of our democratic 
process are in need of attention: Funding, acquisition of 
sufficient polling places, hiring of capable staff and poll 
workers, and reliable postal delivery, all of which supports 
secure and resilient elections.
    We do not fund our elections properly. A recent study by 
Auburn University of election center members found that the 
elections department budgets of their members averaged .54 
percent of their county's budget. These are some of the best-
resourced offices in the country, and they are barely one-half 
of 1 percent of the county budget.
    Episodic Federal funding does not sufficiently bridge the 
gap nor stabilize election administration to allow for planned 
considerations of improvements and modernization. Infusion of 
Federal funding far too often happens late in the election 
cycle, thus limiting its effectiveness.
    Although attention has shifted focus to carrying out an 
election in a global pandemic, foreign adversaries have not 
gone away. We must continue to invest in election security 
infrastructure, resources, and capacity to build on the 
progresses made since 2016.
    I started my career supervising the recruitment and 
training of 8,000 poll workers each Federal election in 
Maricopa County. The county hired hundreds of temporary staff 
as warehouse personnel, delivery drivers, voter registration 
clerks, processors of provisional ballots, and many of those 
positions, just like the poll workers, were retirees. We filled 
the halls of our tabulation facility with card tables of 
processing boards to ensure that every eligible ballot was 
authenticated, processed, counted, and it was never done by 
election night.
    In 2020, those tables will need to be further apart. In 
2020, many of those workers will decline to serve. In 2020, we 
also are not out in the community providing voters with 
information as we would in a normal election year. Instead, we 
are more reliant upon social media platforms and reaching 
voters on-line. This reliance increases the opportunity for 
misinformation to prevail, to spread, to sow chaos, and to cast 
doubt on the very legitimacy of our election.
    Since the Civil War, as we heard, ballots have been 
entrusted to mail carriers for safe delivery. Over the past 10 
years, we have made great strides in fostering a collaborative 
relationship between election officials and the Postal Service. 
And for tens of millions of American voters, their ballot is 
handed to them, not by a poll worker, but by their postal 
carrier, and we have seen USPS embrace their role in what I 
often referred to as delivering democracy. It isn't just 
another envelope. It is someone's ballot. It is someone's vote.
    So we have established protocols, the tracking of election 
mail throughout the process, the sweeping of plants for ballots 
and increasing frequency as election day draws near, with 
nightly all-clears, verifying that all ballots have been 
processed and are on their way to their final destination. But 
some of these efforts require overtime and some require late 
trips, both of which have been called into question lately.
    Although the Postmaster General made statements in an 
effort to clarify the situation in his recent testimony, there 
is still some confusion amongst postal employees, election 
officials and, most importantly, voters. Some will say that it 
is only delayed by 1 day, but in many States, 1 day is a day 
too late for the ballot to count.
    We know that every election there are interruptions of 
service: Hurricanes, fires, tornadoes, floods. Indeed, 9/11 was 
an election day in New York City. But we are in a global 
pandemic and do not know where the next hot spot will be nor 
when it will hit. Our democracy depends on people, and people 
can get sick.
    Ballots mail out to voters in less than a month. Military 
and overseas voters' ballots will go out in every State in the 
Nation on September 19. We don't have much time. The runway is 
running out.
    The American public is tired, frustrated, grieving the loss 
of more than 180,000 souls. For voters who opt to vote in 
person, they need to be provided with safe options that do not 
cause them to have to choose between their health and ability 
to participate. They need to be assured that, in this moment, 
it is safe and secure to vote by mail if that is what they 
choose. In this moment, their voting booth may very well be 
their kitchen table, their ballot box, their mailbox. In this 
moment, they need to be reminded that their voices will be 
heard and their votes counted.
    I look forward to answering any questions you might have, 
and thank you again for the opportunity.
    [The prepared statement of Ms. Patrick follows:]
                  Prepared Statement of Tammy Patrick
                            August 28, 2020
                               salutation
    Thank you Honorable Chairman Thompson, Ranking Member Rogers, and 
Members of the committee for asking me here today to share with you how 
election officials have been preparing for the upcoming election, the 
challenges they are facing, and the concerns some of them have with 
what has been happening under the new leadership at the United States 
Postal Service.
    As a bit of background, I was a local official in Maricopa County, 
Arizona for over a decade and served as a commissioner on President 
Obama's Presidential Commission on Election Administration (PCEA). I 
serve as a liaison between the National Association of Election 
Officials (Election Center) and USPS as a member of the Postal 
Service's Mailers Technical Advisory Committee (MTAC), and for years 
have worked with the National Institute of Standards and Technology 
(NIST) on various risk assessments, election common data formats, the 
Voluntary Voting Systems Guidelines (VVSG), and most recently 
cybersecurity frameworks.
    After the PCEA's work was completed I moved from Arizona to work in 
Washington, DC at the Bipartisan Policy Center where I penned the New 
Reality in Voting by Mail in 2016. Since 2017, I have served as a 
senior advisor to the elections team at Democracy Fund, an independent 
foundation working to defend American democracy and challenge it to be 
more open and just. I am also an adjunct professor at the Humphrey 
School of Public Administration at the University of Minnesota.
                              introduction
    We do not properly fund our elections. A recent study by Auburn 
University of Election Center members found that the election 
department budget of their members averaged .54 percent of their 
counties' budgets. These are some of the best-resourced offices in the 
country and they are barely one-half of 1 percent of their counties' 
budget. Many jurisdictions were advised earlier in the year to submit 
budgets with cuts of 10-20 percent due to loss tax revenues in their 
jurisdictions. Offices have seen salary reductions and furloughs in a 
time when we have additional workloads and responsibilities.
    Episodic Federal funding does not sufficiently bridge the gap nor 
stabilize election administration to allow for planned considerations 
of improvements and modernizations. Infusion of funding far too often 
happens late in the election cycle, thus limiting its effectiveness.
    Philanthropy has played a key role in the last decade. Pew's Voting 
Initiatives brought us programs like the Electronic Registration 
Information Center (ERIC) now an independent consortium of States, the 
Voting Information Project (VIP) that gathers official data from the 
States and aids in its distribution to hundreds of websites now housed 
at Democracy Works, and the Election Performance Index (EPI) now housed 
at MIT's Election Data Science Lab (MEDSL). These efforts have helped 
shape our understanding of election administration and improved policy 
decisions based on facts and data.
    Five years ago Democracy Fund stepped into the void created when 
Pew left the space. Since 2016 we have funded some of the most 
successful efforts responding to the security threats to our 
elections--some of them recently picked up by the Election Assistance 
Commission (EAC) such as the Center for Internet Security's Non-Voting 
Election Technology Verification program to provide guidance similar to 
the VVSG for the tertiary technology not contemplated in the Help 
America Vote Act (HAVA) and training programs for election officials 
created by the Center for Technology in Civic Life (CTCL) on 
cybersecurity. CTCL recently expanded their training offerings to 
include a module on combating election misinformation and communicating 
trusted election information, an on-going concern for election 
officials. The Belfer Center's Defending Digital Democracy Program has 
offered Tabletop Exercises that have been touted as one of the most 
effective efforts to prepare election officials.
    In this moment, when the country is dealing with a global pandemic 
during a Presidential Election Cycle, business and commerce are also 
assisting. Anheuser-Busch has launched a Nation-wide effort to supply 
hand sanitizer to election officials, facilities are opening their 
doors as polling locations, and businesses are offering employees time 
off to work the polls. Yet, all of these deficiencies remain 
problematic in far too many jurisdictions.
    In this moment the basic necessities of our democratic process are 
in need of attention: Acquisition of sufficient polling places, hiring 
of capable staff and poll workers, reliable postal delivery, and a 
secure and resilient electoral process. It is also important to note 
that even as National attention has shifted focus to carrying out an 
election in the midst of a global pandemic, foreign adversaries have 
not gone away. We must continue to invest in election security 
infrastructure, resources, and capacity and build on the progress made 
since 2016.
         in-person activities: voting & election administration
    Election officials all across the country are having difficulty 
securing polling locations for the upcoming election. I have spoken to 
election officials who, in the best-case scenario are missing about a 
fourth of their facilities, and in the worst-case all of their 
locations have denied them access. Houses of worship have said ``If we 
can't have our services, we can't be a polling location''. Schools have 
said ``If we can't teach the children safely, then it isn't safe to be 
a polling location either''. Many officials have told me that even when 
they can secure a facility many of them are now requiring a post-
election day deep cleaning as a prerequisite, and local election 
officials are hard pressed for the resources as most of the CARE Act 
funding was expended in the conduction of the primary elections earlier 
this year.
    Given the Center for Decease Control (CDC) social distancing 
recommendations some facilities are no longer satisfactory. A growing 
trend is the use of large polling locations such as arenas and 
colosseums--many with ample parking and sufficient air circulation to 
keep voters safe. More curbside-voting and drive-thru, contact-free 
offerings will be available to voters. We saw some of this in the 
primary season and it is anticipated that these practices will most 
likely expand and spread given the on-going growth of the numbers of 
positive infections and subsequent deaths.
    Having a polling location is just the first challenge in a global 
pandemic, staffing the locations is the second. Traditionally our polls 
have been staffed by the very individuals who are the most vulnerable 
to COVID-19. Although every State will offer in-person voting solutions 
for the November election, they may look differently: New location, new 
staff, different procedures. Because we will see an increase in poll 
workers working for the first time, training and support materials will 
be critical to ensure that policies and procedures are understood and 
followed.
    I started my career in poll worker recruitment. I had a staff of a 
dozen or so temporary workers who hired around 8,000 workers to staff 
the 1,142 precincts. The county hired hundreds of workers as field 
rovers, warehouse personnel and delivery drivers of polling location 
materials, central boardworkers processing vote by mail applications, 
and provisional ballots. Many of those positions, just like poll worker 
positions, were filled by retirees. We filled the halls of our 
tabulation facility with card tables of processing boards to ensure 
that every eligible ballot was authenticated, processed, and counted.
    In 2020 those tables will need to be further apart.
    In 2020 many of those workers will decline to serve.
    In 2020 we have seen election officials test positive, spend weeks 
in the hospital, have their offices quarantined, and even the loss of 
life for a few. We do not know where the next hotspot will be or where 
it will hit. We know that election officials working from home and 
``dialing it in'' have to take additional steps to secure their 
connections, to secure their networks.
    In 2020 we do not have Supervisors of Elections in Florida out 
registering voters at the local festival, we do not have County 
Auditors in Iowa at the county fair providing voter information, we do 
not have political parties, candidates, third-party organizations in 
front of the library providing voters with information on when and 
where to vote as we would in a normal Presidential election cycle. 
Instead we are more reliant upon social media platforms and reaching 
voters on-line. This reliance increases the opportunity for mis- and 
disinformation to prevail, to spread, to sow chaos, and to cast doubt 
on the legitimacy of our election.
    For this reason, as the General Election nears, it will be critical 
to ensure that advocates, journalists, and others' growing interest in 
discussing election security does not inadvertently dampen voter trust 
and enthusiasm. If framed correctly, growing attention to election 
security issues can help create momentum to address security gaps and 
secure Federal election security funding. Employing the wrong messages, 
however, can lead voters to lose faith in elections. To understand how 
election security messages resonate with voters within a rapidly-
evolving election security landscape Democracy Fund commissioned 
research in 2018 resulting in a report titled ``How to Talk about 
Threats to Elections in Ways that Won't Dampen People's Desire to 
Vote'' from the Annette Strauss Institute for Civic Life at the Moody 
College of Communication at the University of Texas at Austin. This 
research revealed that focusing exclusively on election security 
threats decreases trust, while pairing threats and solutions (or 
efforts to defend elections), informs the public without decreasing 
trust. Specifically, reporting on threats to elections alone heightens 
negative emotions: Reporting on election issues increases anxiety and 
anger and makes people feel less enthusiastic about politics. In 
contrast, coverage featuring threats and efforts to address them leads 
to less negative emotions and an increased sense that elections can be 
protected.
                              action items
Congress
    Funding Stream.--Congress needs to establish a steady funding 
stream for elections to support this critical infrastructure. Although 
the election is practically upon us, additional funding, even at this 
late date, can be used to secure additional PPE, cover the costs of 
additional space for processing and voting, and cover expanded 
payrolls.
CISA
    Continue to provide tools, education, and support for election 
officials.--CISA has proven to be an essential partner to State and 
local election officials by providing election officials with a range 
of tools, education, and support to strengthen the cybersecurity of 
their election systems. Since CISA began working with election 
officials and other partners to increase the security and information 
sharing across election systems and networks, important benchmarks have 
been reached. Notably, CISA has conducted hundreds of vulnerability 
assessments, offered on-line cybersecurity training completed by close 
to 3,000 election officials across the country, and developed tools and 
resources like their Last Mile and Misinformation resources to improve 
election official security posture and awareness. A critical 
contributor to CISA's success has been its ability to build trusted 
relationships with election officials and others in the space working 
to improve election cybersecurity.
    Continue information-sharing coordinator role.--Another 
coordinating role that CISA plays in the election community is as an 
information-sharing hub--CISA monitors, receives, and shares out 
critical information on cyber threats and incidents to election 
officials and other key stakeholders. On election day for the 2018 
Midterm Election and on 2020's Super Tuesday CISA hosted an 
unclassified Situation Room at DHS. This gathering of invested 
stakeholders expedited communications and incident response and was 
demonstrative of their collaborative approach to securing our 
elections.
State/Local
    Expand EI-ISAC membership.--All 50 States plus the District of 
Columbia participate in the EI-ISAC, which provides elections officials 
with regular updates on cyber threats, cyber event analysis, and cyber 
education materials. While State participation is key, additional 
tools, outreach, and support targeting local officials is needed for 
the elections community as a whole to benefit from the critical 
services provided. For some without a dedicated cybersecurity or IT 
staff person, the information shared, and actions required can be 
overwhelming. To meet these needs, an effort is underway to make the 
messages more consumable and actionable for local officials who may not 
be as steeped in the more technological aspects of the content.
    Expand options for voters.--State and local election officials need 
to continue their efforts to provide voters with as many safe voting 
options as they can and ensure that in-person solutions allow for 
adherence to CDC recommendations while still processing voters in a 
timely fashion. Restrictions on types of facilities that can be used 
should be lifted, all government facilities be made available. Number 
of days, hours, and locations for voting should allow voters sufficient 
capacity to spread out over both time and distance.
    Education Campaigns.--Election officials need the resources to 
undertake a concerted effort to educate and update voters with what 
their voting options are in 2020. At this time there are currently more 
than 200 cases of election litigation in the courts all across the 
country. Almost every State has a challenge to some aspect of how the 
General Election is to be conducted, along with State legislatures 
still seated in a dozen or so States with potential election 
legislation. Election officials must communicate information so voters 
are aware of changes and can act early in the process.
Voters
    Make a plan to vote.--Voters should verify what their options are, 
make a plan to vote, and talk to friends and family members about their 
plans. Ensuring that correct information is being shared is critical.
                              vote by mail
    I would like to turn to the other channel of voting, voting by mail 
or absentee.
    Since the Civil War, ballots have been entrusted to mail carriers 
for safe delivery. Since the late 1980's the State of Oregon has 
conducted all of their elections by mail. In the 90's, the Postal 
Service created the Official Election Mail Logo to help identify 
ballots and voter registration materials in the mail stream. But it was 
not enough.
    Ten years ago, when election officials would have a postal session 
at our conferences, election administrators from across the country 
would line up at the microphone to share their stories of poor 
communication: Phone calls that went unanswered, emails that were never 
returned, questionable customer service.
    However, in the ensuing decade we made great strides in fostering a 
collaborative partnership between election officials and the Postal 
Service. For tens of millions of American voters their ballot is handed 
to them not by a poll worker, but by their postal carrier and we have 
seen USPS embrace their role in what I often refer to as ``delivering 
democracy''. It isn't just another envelope in with the more than 400 
million mail pieces each day: It is someone's ballot, someone's vote.
    Protocols were established:
  <bullet> the tracking of election and political mail throughout 
        processing;
  <bullet> focused training of operational staff on treatment of 
        ballots;
  <bullet> the creation of a special Service-Type ID (STID) for ballots 
        in the intelligent mail barcodes to raise visibility of ballots 
        in the data (to parallel what the logo does visually);
  <bullet> the sweeping of plants for ballots in increasing frequency 
        as election day draws near with nightly all-clears verifying 
        that all ballots have been processed and are on their way to 
        their final destination; and
  <bullet> Election Mail specialists were tasked with outreach to 
        election officials to aid them in their navigation of the many 
        rules and regulations in the tome that is the USPS Domestic 
        Mail Manual (DMM).
    Some of these efforts have required overtime.
    Some of them require additional trips, and some late trips.
    The ``Mandatory Stand-up Talk'' directive postal employees received 
in early July outlined no overtime and no late trips and that changes 
``may be difficult'' and that ``we may see mail left behind or mail on 
the workroom floor or docks''. This is diametrically opposed to the 
ethos of the Postal Service: ``Neither snow nor rain nor heat nor gloom 
of night stays these couriers from the swift completion of their 
appointed rounds''.
    It has been reported that ``there IS overtime'' and that ``there 
have been no official changes''--yet my understanding is that a 
mandatory directive outlining that ``Every single employee will receive 
this information, no matter what job they perform'' changes the 
expectation of what that employee will do on the job. Although the 
Postmaster General made statements in an effort to clarify the 
situation in his recent testimony, there is still confusion amongst 
postal employees, election officials, and voters.
    My concern is with the postal carrier out on their route and their 
shift is about to end: Do they finish the route? Do they leave the 
remaining stops to be picked up the next day? What if there are ballots 
in those mailboxes?
    If the carrier DOES complete their route, will the truck heading 
for the processing plant wait for the carrier to come in? Even if it 
means that they don't leave on time?
    If the mail is not collected or does not go to the plant on the day 
it is picked up, will it be postmarked that day, or the next?
    Some will say that it is only delayed 1 day--but in many States 1 
day is a day too late for the ballot to count. And there are many 
points along the journey that such a delay could occur (see Figure 1).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    It was reported earlier this week that trucks are leaving on time, 
but they are leaving empty.
    The Postal Service has recommended for years that that ballots mail 
out at First Class, rather than Marketing Mail (formerly Standard 
Mail). The use of Marketing Mail is most common in the Western States 
where we have whole States, and large portions of other States, mailing 
out ballots to voters weeks in advance of election day. Many election 
offices have mailed at this rate not because they have a lesser view of 
Election Mail, but because they have been told for years that the use 
of the Election Mail logo and the green Ballot Tag 191 (a placard that 
goes on the mail trays) allowed the Postal Service to identify ballots 
and expedite their delivery. This is still what local Postal employees 
are telling election officials, what they recently experienced in the 
State's primaries in the last few weeks.
    Yet from L'Enfant Plaza election officials have been hearing that, 
``You get the service that you pay for. The logo does not change the 
class of service.'' It is only recently that the Postmaster General has 
somewhat begrudgingly agreed to continue prioritizing Election Mail.
    The tone I am hearing from this Postmaster General is a new one, it 
is accusatory and combative where previously it was collaborative and 
instructive. At the recent Board of Governors meeting it was said that 
``we cannot correct the errors of the Election Boards if they fail to 
deploy processes that take our normal processing and delivery standards 
into account.'' Election boards do not set the dates and deadlines to 
mail out ballots, State legislatures do and they have been remiss to 
change them.
    The voters should not be disenfranchised because of the failings of 
their elected officials. In the past the Postal Service has moved 
mountains if need be to ensure ballots were prioritized--even, and most 
importantly, in those final days before the deadline.
    I will be honest; this is where I do have some internal angst. For 
years I have been calling on the States change their deadlines to 
request a ballot--and some have. The Postal Service recommends voters 
mail back their ballot at least 1 week before it is due, and that is 
pre-COVID. Yet, 22 States allow a voter to request a ballot in that 
time--7 allowing for a voter to request a ballot by mail on Monday for 
Tuesday's election. This sets the wrong expectation for voters, the 
expectation that even if they do wait until the deadline things will be 
fine. They won't. Especially if the Postal Service is no longer going 
to the lengths, they have in the past to make certain that voters 
aren't the ones to pay the cost for outdated statutes. That cost is 
high. That cost is with their vote.
    It is all about timing. Removal of blue collection boxes, pulling 
sorting equipment off-line, hiring freeze, rapid reorganization, pilot 
programs to change carrier routes in urban areas--some of these actions 
may be warranted and fully supported by data, but the lack of 
transparency has been palpable; and in a vacuum, you get viral. The 
public outcry of concern demonstrates that the voters are listening, 
they are watching, and it is impacting their confidence in their 
ability to vote by mail.
    Last, every election there are interruptions of service. 
Hurricanes, fires, tornadoes, floods, indeed 9/11 was an election day 
in New York City. But this year we also are in a global pandemic and do 
not know where the next hot spot will be nor when it will hit. Our 
democracy depends on people, and people can get sick. The Illinois 
Board of Elections is currently under quarantine. We know that Fulton 
County, GA had a 2-week quarantine in the primary and a death of an 
employee. The Postal Service employs more than 600K people and 
processing plants and carrier pickup and delivery depend on them. Now 
is not the time for a hiring freeze.
                              action items
Congress
    Fund the USPS.--All of the changes that have been proposed by the 
new Postmaster General have been done under the auspices of financial 
stability. Although fiscal changes need to be made, the timing of these 
changes is questionable. We need to properly fund our Postal Service--
not only to support the vibrancy of a safe and secure channel to vote 
in a global pandemic, but also to ensure rural America remains 
connected, that our citizens receive their pharmaceuticals, and that 
our economy isn't further decimated.
    Create Formal Election Mail USPS Policy.--To ensure a consistent, 
expedited, and high level of service for Election Mail every election, 
USPS should adopt a formal standardized Election Mail policy that 
encompasses First Class mail service standards and postmarking to 
prioritize ballot processing and delivery.
    Provide Paid Postage for all Election Mail.--Providing pre-paid 
postage for every voter would reduce barriers to voting and increase 
efficiency at the local election jurisdiction level by creating a 
Federal indicia to pay for outbound and inbound Election Mail to 
voters--a system already in place for military and overseas voters as a 
part of UOCAVA legislation.
USPS
    Treat Election Week as ``Peak Season''.--Formally treat the week 
before a Federal election as ``peak season.'' In accordance with 
holiday ``peak season'' operating processes, keep processing plants 
open and operating during the 2 weekends before election day. Consider 
mirroring tax-day-level front-line service on election day.
    Increase USPS Election Mail Training and Outreach.--Following the 
protocols used in 2016, require USPS election mail coordinators to 
reach out to each State's chief election official to promote open 
communication. Increase all USPS staff's understanding of processing 
Election Mail and ensure that all front-line customer-facing staff 
proactively offer Election Mail services like round stamping ballot 
return envelopes through an increased volume of Election Mail trainings 
to an expanded scope of USPS staff.
State/Local
    Increase Ballot Tracking and Mail Ballot Return Options.--Consider 
using barcode data--like intelligent mail barcodes--and other 
information from the USPS to verify that a ballot was submitted in time 
instead of only relying on a cancellation or postmark. Require Service-
Type Identification (STID) for all Election Mail to allow USPS to know 
where ballots are in the mail stream. Providing voters with expanded 
options for returning their ballots through drop boxes independent of 
USPS will aid voters who need to safely return their ballot in the last 
week before election day.
    Align State Ballot Request Deadlines with Reality of Mail Delivery 
Time Lines.--For many years now, USPS has advised that voters return 
their ballots back in the mail 1 week before they are due. However, the 
necessary policy changes to align dates and deadlines with USPS 
delivery standards hasn't happened in many States and more than 20 
States allow for a voter to request a ballot be mailed to them within 7 
days of an election--after the time that USPS recommends the ballot be 
mailed back. This problem will be exacerbated given if ballot 
prioritization protocols are changed and additional time is added to 
the process.
Voters
    Don't Wait to Request.
    Don't Wait to Return.
    Know Your Options.
                               conclusion
    I got into the field of election administration almost 20 years ago 
because I was concerned with what I saw, with what I was hearing. At 
every turn voters were being told that machines could be hacked, votes 
flipped, the system was rigged, the candidates were all the same, there 
was rampant fraud, there would be obstacles like long lines/onerous ID 
laws/voter intimidation. I was concerned because I saw turnout 
dwindling, apathy growing, and our democracy slipping away.
    Ballots mail out to voters in less than 1 month. Military and 
overseas voters' ballots will go out in every State in the Nation on 
September 19. We don't have much time; the runway is running out. The 
American public is tired, frustrated, grieving the loss of more than 
180K souls. They need to be assured that in this moment it is safe and 
secure to vote by mail if that is what they choose. In this moment 
their voting booth may be their kitchen table, their ballot box, their 
mailbox. For voters who opt to vote in person, they need to be provided 
with safe options that do not cause them to choose between their health 
and ability to participate.
    In this moment their voices will be heard and their votes counted.
    I look forward to any questions you may have.

    Chairman Thompson. Well, thank you very much for your 
testimony.
    Finally, I recognize Secretary Adams to summarize his 
statement for 5 minutes.
    Ms. Slotkin. You are muted, sir.

STATEMENT OF MICHAEL ADAMS, SECRETARY OF STATE, COMMONWEALTH OF 
                            KENTUCKY

    Mr. Adams. I have only done like a thousand of these in the 
last 4 months, you would think I would figure that out. Thanks. 
I will start again.
    Mr. Chairman, Members of the committee, good afternoon. I 
am Michael Adams, Kentucky's secretary of state. I was sworn in 
January of 6 of this year. Talk about hazing the new guy. 
Despite the challenges we have faced this year, Kentucky has a 
good story to tell, and I am honored to have the opportunity.
    On March 6, Kentucky diagnosed its first case of COVID-19. 
Ten days later, our Governor, Andy Beshear, a Democrat, and I, 
a Republican, jointly agreed to delay Kentucky's primary 
election from May 19 to June 23. Before long, we knew the virus 
would not be gone by June. Our legislature, at my request, came 
together across party lines to grant a Democratic Governor and 
Republican secretary of state new joint emergency powers to 
change our election methods, but only if the Governor and I 
acted together. To make a change, we must both turn the key.
    It was obvious that flexibility in our election system was 
needed. In our State, usually 98 percent of voters vote in 
person on election day. That traditional model was not well-
suited to today's challenges. Kentucky had the good fortune to 
vote after several other States, and we learned a lot from 
their experiences, positive and negative. This flexibility gave 
us time to monitor those developments.
    The biggest benefit, though, of legislators of both parties 
giving Executive branch officials of both parties the ability 
to make changes was that the new rules were fair and seen as 
fair. We avoided the brinksmanship you have seen in some other 
States. We fashioned fair and clear rules well in advance of 
the election and consistently messaged the new procedures in 
order to both inform and reassure voters. Bipartisanship not 
only led to a better product, with concerns on both sides 
accommodated, it also showed voters on both sides that our new 
election rules were legitimate.
    To be sure, there were those outside our State who thought 
they knew better how to run our election than we did. Whether 
in Hollywood, New York, or here in Congress, they put out false 
and hateful tweets that riled up citizens of other States to 
jam our phones with obscene calls and even death threats. 
Everything they accused us of and everything they predicted 
would happen was just flat wrong, and they should all be 
ashamed.
    We had a huge voter turnout and no spike in COVID-19 cases. 
Turns out Kentucky knows best what is best for Kentucky, and I 
would urge you to let Kentucky be Kentucky, let Michigan be 
Michigan, and respect the laboratories of democracy that lead 
to innovation in a decentralized election system. Although I am 
grateful for the CARES Act funding Congress gave us to reduce 
our costs, I would rather you give us no funding at all if more 
funding means you are going to tell us how to run our 
elections.
    In our State, we found that what made the most sense for 
our June primary was no-excuse absentee voting, as we had a 
severe drop-off in the number of available poll workers and 
voting locations. For November, with turnout expected to more 
than double that of the primary, we are tightening the absentee 
voting standards somewhat, preserving it for those who need it 
due to age or health concerns, but also not overwhelming our 
infrastructure, our county clerks who process the ballots, and 
our postal system.
    In both elections, we have utilized an absentee ballot 
request portal linked to our driver's license database so we 
can verify voter identity. We also track ballot envelopes with 
bar codes and signature match every single one before the 
ballot is counted.
    Both for our primary and general election, we have offered 
weeks of early in-person voting. I have found that Kentuckians 
of both parties want to vote in person if they can, and as we 
showed in June, we know how to conduct in-person voting safely. 
Although I support absentee balloting for those who need it, 
early voting is a far less expensive and labor-intensive way to 
conduct an election. It takes the pressure off election day 
voting sites. Having more election days also spreads out the 
crowds, facilitates social distancing.
    One silver lining of our pandemic primary is that it 
prompted an upgrade of our voting equipment in some of our 
counties where prior voting equipment did not allow for a paper 
trail. This was due to HAVA dollars that you appropriated us in 
December. Otherwise, it would not have been possible. We used 
those funds strategically, alongside CARES Act dollars, to help 
counties get new scanners and other equipment usable for 
processing absentee ballots which, of course, are paper 
ballots.
    For me, the gold standard is paper ballots counted 
electronically, so we get the speed of a quick count but the 
security of a paper trail. It was a goal of mine over this 
decade to introduce paper balloting to every Kentucky county, 
but now it won't take nearly that long.
    We have our work cut out for us. I am grateful to Congress 
for coming together to appropriate funds we States could use to 
run our elections in a difficult time. I would encourage you to 
do so again, but not at the expense of any strings attached, 
red tape, or direction how to run the elections that, under our 
Federal Constitution, are tasked to the States and us, the 
election officials.
    Thank you.
    [The prepared statement of Mr. Adams follows:]
                  Prepared Statement of Michael Adams
    Mr. Chairman, Members of the committee, good afternoon.
    I'm Michael Adams, Kentucky's secretary of state. I was sworn in 
January 6 of this year. This is my first testimony before Congress, and 
my first election year as Kentucky's chief elections official. Talk 
about hazing the new guy. Despite the challenges we've faced this year, 
Kentucky has a good story to tell and I'm honored to have the 
opportunity.
    On March 6, Kentucky diagnosed its first case of COVID-19. In the 
days immediately following, the biggest challenge in election 
administration I thought I faced was in getting enough Lysol and hand 
sanitizer to our approximately 3,700 election precincts.
    Then, virtually overnight, the world changed. The second week of 
March, we in Kentucky knew this crisis was real when college basketball 
was canceled. Just 10 days after our first COVID-19 case, our Governor, 
Andy Beshear, a Democrat, and I, a Republican, jointly agreed to delay 
Kentucky's primary election from May 19 to June 23, the maximum 5 weeks 
allowed by law.
    Kentucky is not unique in allowing public officials to delay an 
election during a state of emergency. September 11, 2001, was primary 
election day in New York City, and since 9/11 many jurisdictions now 
have these laws. However, Kentucky is very unique in the following 
respect.
    Our legislature, at my request, broadened the Governor's and my 
joint authority to alter the time or place of an election, adding to 
those the ability to jointly act to alter the manner of an election. It 
was obvious in early April, right before our part-time legislature 
adjourned, that flexibility in our election system was needed. In our 
State usually 98 percent of voters vote in person on election day. That 
traditional model was not well-suited to today's challenges. However, 
our legislature did not have time before constitutionally-mandated 
adjournment by April 15 to conceive, debate, and pass a new election 
code. Even if they had, an election plan designed in early April might 
not have met the needs of late June.
    Our legislature came together across party lines and expanded the 
emergency powers of a Democratic Governor and Republican Secretary of 
State--but only if we acted together. To make a change, we must both 
turn the key.
    Kentucky had the good fortune to vote after several other States, 
and we learned a lot from their experiences, positive and negative. 
This flexibility gave us time to monitor these developments. The 
biggest benefit, though, of legislators of both parties giving 
executive branch officials of both parties the ability to make changes 
was that the new rules were fair, and seen as fair. We avoided the 
brinksmanship you've seen in other States; we fashioned fair and clear 
rules, well in advance of the election, and consistently messaged the 
new procedures in order to both inform and reassure voters. 
Bipartisanship not only led to a better product, with concerns on both 
sides accommodated; it also showed voters on both sides that our new 
election rules were legitimate.
    To be sure, there were those outside our State who thought they 
knew better how to run our election than we did. Whether in Hollywood, 
New York, or here in Congress, they put out false and hateful tweets 
that riled up citizens of other States to jam our phones with obscene 
calls and even death threats. Everything they accused us of, and 
everything they predicted would happen, was just flat wrong, and they 
should all be ashamed. Turns out Kentucky knows best what is best for 
Kentucky, and I would urge you to let Kentucky be Kentucky, let 
Michigan be Michigan, and respect the laboratories of democracy that 
lead to innovation in a decentralized election system. Although I'm 
grateful for the CARES Act funding Congress gave us to reduce our 
costs, I would rather you give us no funding at all if it means you're 
going to tell us how to run our elections.
    In our State, we found that what made the most sense for June was 
no-excuse absentee voting, as we had a severe drop-off in the number of 
available poll workers and voting locations. For November, with turnout 
expected to more than double from the primary, we are tightening the 
absentee voting standard somewhat, preserving it for those who need it 
due to age or health concerns, but also not overwhelming our 
infrastructure--our county clerks, who process the ballots, and our 
postal system. In both elections, we've utilized an absentee ballot 
request portal linked to our drivers' license database so we can verify 
voter identity. We also track ballot envelopes with bar codes and 
signature-match every single one before the ballot is counted.
    Both for our primary and general election, we've offered weeks of 
early in-person voting. I've found that Kentuckians of both parties 
want to vote in person if they can, and as we showed in June, we know 
how to conduct in-person voting safely. Although I support absentee 
balloting for those who need it, early voting is a far less expensive 
and labor-intensive way to conduct an election, and it takes the 
pressure off election day voting sites, where we face the challenge of 
finding both the locations and the poll workers. Having more election 
days also spreads out the crowds and facilitates social distancing.
    One silver lining of our pandemic primary is that it prompted an 
upgrade of voting equipment in some of our counties whose prior voting 
equipment did not allow for a paper trail. This was possible due to 
HAVA dollars you appropriated in December. We used those funds 
strategically alongside CARES Act dollars to help counties get new 
scanners and other equipment usable for processing absentee ballots, 
which of course are paper ballots. For me, the gold standard is paper 
ballots counted electronically, so we get the speed of a quick count 
but the security of a paper trail. Whether you're concerned about vote 
hacking by foreign powers, or domestic actors tampering with voting 
machines, or even just the ability to perform a reliable recount, paper 
ballots counted electronically makes sense. It was a goal of mine over 
the decade to introduce paper balloting to every Kentucky county, but 
it now won't take nearly that long.
    We have our work cut out for us. I'm grateful to Congress for 
coming together to appropriate funds we States could use to run our 
elections in a difficult time. I would encourage you to do so again, 
but not at the expense of any strings attached, red tape, or direction 
in how to run the elections that, under our Federal Constitution, are 
tasked to the States, and us, their election officials. Thank you.

    Chairman Thompson. I thank all the witnesses for their 
testimony.
    I remind the subcommittee that we will have 5 minutes to 
question the panel. I now recognize myself for questions.
    I would remind the Ranking Member from his comments that 
the committee's oversight jurisdiction directs the committee to 
review and study on a continuing basis all Government 
activities [inaudible] of the homeland security. Safe, secure 
elections, free from disinformation campaigns, are integral 
parts to homeland security. Moreover, the United States Postal 
Service is a critical component to the Nation's critical 
infrastructure, and this committee is responsible for ensuring 
the security of that critical infrastructure.
    All of us on this committee are elected officials. We have 
seen elections conducted in our communities time and time again 
[inaudible] by excellent local officials. Clearly, we see 
elections as a local responsibility. We trust those 
individuals. However, President Trump has repeatedly made 
baseless allegations and spread misinformation about voting by 
mail. In fact, in July, the President even issued an appalling 
tweet urging that we delay the American election because of the 
so-called risk of voting by mail. Ironically, we know that the 
President votes by mail, the First Lady votes by mail. The 
Postmaster General testified that he plans to vote by mail, as 
he has done for many years.
    Ms. Patrick, to be clear, is there any meaningful 
difference between absentee voting and vote by mail?
    Ms. Patrick. I think that there is a lot of confusion 
around that, Mr. Chairman. In the vast majority of the States, 
it is one and the same. Some previously called it absentee 
voting, and they have changed their statutes, like Florida did, 
to refer to it as vote by mail. There are a handful of States 
where they do make a subtle distinction in their statutes 
between absentee and vote by mail, and sometimes that 
distinction is in reference to whether or not a voter on one 
list or the other permanently gets a ballot mailed to them or 
whether they need to make a request for every election.
    But when we hear about it in the National landscape, it is 
almost commonly referring to the exact same process of a ballot 
being mailed out to a voter and then the voter having options 
in how they would like to return their ballot.
    Chairman Thompson. Thank you.
    Secretary Benson, I understand that Michigan has approved 
universal vote by mail. In your experience, is vote by mail 
uniquely prone to fraud?
    Ms. Benson. Thank you for the question, Mr. Chairman. No, 
we actually have now conducted 3 elections this year alone with 
a full right to vote by mail, with more citizens voting by mail 
than ever before and with zero reports or evidence of fraud.
    That said, the signature standard that we have in place to 
ensure that signatures are matched on the envelope in which a 
ballot is sent to the signature we have on file ensures that we 
have a security check in place so that we can find and 
investigate irregularities, if and when it occurs. So we have 
got a system in place to protect the process, but notably, the 
evidence shows primarily that people want to vote by mail and 
there is zero evidence of fraud or irregularities.
    Chairman Thompson. Thank you very much.
    Secretary Adams, in your short tenure there, have you found 
much fraud in vote by mail or absentee ballot process?
    Mr. Adams. Well, Mr. Chairman, I am very pleased to say 
that our election this year was clean. I did have some concerns 
about going from about 2 percent absentee balloting to what we 
ended up with, which was about 75 percent. We put a lot of 
protocols in place to make sure that we didn't have vote fraud. 
We formed an interagency task force with Federal and State 
partners to closely supervise potential problem spots. There 
are certain parts of our State that have more of a history of 
election shenanigans than other parts, and so we were very 
vigilant, we surveilled it tightly, and we had a clean 
election.
    Chairman Thompson. So as far as you are concerned, those 
local officials that you talked about, if left to their own 
devices, they will probably design a system, to the extent 
practicable, that is fraud-free?
    Mr. Adams. Well, sir, I will say this: You know, No. 1, I 
have confidence in all of my colleagues of both parties who are 
in my position. Some have different models of what election day 
looks like than what we have in Kentucky, and I like what we 
have maybe better than what they have, but I think they are all 
people of integrity. They are all people held accountable by 
their voters to have clean and fair elections. But I do think 
that local control is best, State control is best. It enables 
us to design the system that meets our specific needs.
    With respect to fraud, you know, we have really tight 
protocols here in Kentucky. As I referenced in my testimony, we 
require the voter to apply for the ballot. We run that through 
the database, make sure all the information is correct, and we 
then track the ballots and bar codes, and then we signature 
match every single one. These are best practices that we have 
seen in other States and we have implemented those here.
    So just to be clear, I think all things being equal, voting 
in person is the gold standard, but we are in unique times and 
we have got to acclimate to that.
    Chairman Thompson. Thank you very much.
    Mr. Dimondstein, in the few minutes that I have left, let 
me thank you and the Members for all you have done to fight for 
our Nation's Postal Service. The Postal Service is a good 
public good, and in rural areas like the one I represent and 
where I live, it is truly an essential lifeline.
    How have the President's efforts to politicize the Postal 
Service hurt this institution?
    Mr. Dimondstein. Well, look, this is an institution, Mr. 
Chairman, that has 91 percent favorability rating from the 
people of this country. Throughout the political spectrum, it 
is equal, whether someone identifies as a Republican or a 
Democrat, Independent, Libertarian, Green, or whatever. So when 
the top official of the land calls the Postal Service a joke, 
consciously says they are withholding needed emergency COVID 
relief funds, that the Post Office will not be as successful in 
serving the people of the country in vote by mail, rails that 
package rates should be raised 4 times, which would be a 
detriment to every single consumer in this country and every 
single e-retailer, it undermines the people's confidence in the 
Postal Service. For us as postal workers in the front lines--
and especially in the front lines as essential workers in this 
pandemic, it is an insult.
    It also paves the way to a privatization agenda, Mr. 
Chairman, because that is the agenda of this White House. It is 
in writing. You are not hearing this from me. It was in a June 
2018 Office Management Budget report. But to get to privatize, 
that means dismantle, break up, and sell to private 
corporations for private profit. When you have a 91 percent 
approval rating, you have to break that bond, because the 
people will never allow something that they feel so strongly 
about to be taken from them. The way you try to break that bond 
is you degrade and you undermine service so it doesn't work for 
the people of this country.
    We are in a moment where we are hearing from customers all 
over the country that the service that they are used to is not 
there and it needs to be restored and needs to be restored 
quickly.
    Chairman Thompson. Well, thank you.
    I thank all our witnesses for being here today.
    I now recognize the Ranking Member of the full committee, 
the gentleman from Alabama, Mr. Rogers, for questions.
    Mr. Rogers. Thank you, Mr. Chairman.
    As you and I have both talked about for years and expressed 
our frustration for years, for the 16 years we have been on 
this committee, we don't have the broad jurisdiction we think 
we should have. I would be thrilled if, in fact, we had the 
jurisdictional reach that you described earlier, but I 
respectfully disagree that we have any jurisdiction whatsoever 
over the topic of today's hearing.
    Having said that, Mr. Adams, you heard Secretary Benson 
describe how safe her in-person voting was in her State because 
of the distancing and the sanitization. Do you find that in-
person voting is unsafe in Kentucky?
    Mr. Adams. No, sir. I am very proud that we had hundreds of 
thousands of people vote in-person in Kentucky, and we had no 
spike in COVID-19 cases. We have had a spike, subsequent to 
that, coming after the 4th of July holiday weekend, and we have 
hit a new plateau since then, unfortunately.
    But, no, I am really proud of the fact that we conducted 
in-person voting safely. We did that by offering election day 
voting at vote centers where any person in the county could go 
vote, regardless of precinct. We also had 2 weeks of early 
voting now to space out the crowds and ensure social 
distancing. But I am very, very confident that we can repeat 
that. I think we will have a lot more people vote in person in 
November. I am proud that we had high turnout in our primary. 
We had about 29 percent. That is pretty good for us. I think we 
will have about 72 percent in November.
    I am concerned about overwhelming our load capacity with 
absentee ballots. So I am not going to run down absentee 
ballots, but I think it is not the full solution by itself. I 
think we have to have in-person voting also. I found that 
opinion not just among Republicans who are dubious of voting 
through the mail system, but also from a lot of Democrats.
    Mr. Rogers. Let me ask, do you believe one method of voting 
is more secure than any other method?
    Mr. Adams. I think, all things being equal, voting in 
person is preferable. I will say that we haven't had, that I 
have seen in my reading of history or otherwise, any sort of 
mass conspiracy to steal a State-wide election since about the 
late 1940's, we had a very famous case then. But we still do 
have election fraud, and it tends to be in local races, usually 
a county executive race or a mayor race. You have got a small 
jurisdiction, it takes very few votes to steal it, and you have 
got patronage on the other side of it, and this happens in 
small towns sometimes, mostly the eastern part of our State. 
But those are isolated instance. You see those every once in a 
while. Those are easier to catch if you have got in-person 
voting, because that is the voting where you are supervising 
the voting with election officials.
    So all things being equal, that is certainly my preference, 
but, you know, certainly my grandparents are still alive, they 
are in their 80's, and they want to vote, and they are nervous 
about going out to do that in person right now.
    Mr. Rogers. Great. Thank you.
    I wanted to ask you about the difference between absentee 
ballot voting and this universal voting. In Alabama, my home 
State, in order to vote absentee, you have to request a ballot. 
My understanding--and up until this election, we had about 12 
different reasons that you could vote absentee. They were 
pretty broad. But in this year during the pandemic, there is no 
reason necessary. If you want to vote absentee because you are 
just remotely being worried about being exposed to the virus, 
you can vote absentee.
    How, in your view, does that differ from universal voting? 
My understanding of universal voting is that everybody on the 
voting roll is sent a ballot. Is that not correct?
    Ms. Patrick. So it is a question of semantics, Mr. 
Congressman. So I often talk about voting by mail or absentee 
voting as an evolution. Every State in the country started out 
with there being an excuse being required for absentee voting. 
Then what has happened over time is that the excuses either 
grow in number and then eventually they get removed and you 
have no-excuse absentee.
    Mr. Rogers. Right.
    Ms. Patrick. Some States have kept that no-excuse absentee 
terminology or phraseology. Others have then changed it to say 
vote by mail. What has happened in the next stage in the 
evolution is that very often a voter--the voting population 
tends to like to vote by mail or vote absentee, and then a 
jurisdiction gets overwhelmed with all of the applications.
    I saw this in my own home State of Arizona when I was a 
local election official there. We had a lot of people, and 
every time they send in an application, particularly for States 
where it has to be for every election--and we saw this in the 
primary elections of election officials being overwhelmed with 
all of these applications coming in. I did a study, and it 
turns out that each one of those applications ends up costing 
around a dollar for processing, for postage. So every one of 
those application has a cost associated with it, and year after 
year, we found the same voters were sending in the same 
application.
    So then, States moved to a permanent absentee list, and 
that is where my former State of Arizona sits right now with 60 
or 70 percent of their voters on a permanent list, and that is 
when the former--the other States then go to that final stage 
of all mail elections.
    So in this moment, universal vote by mail is a phrase that 
is being used that, quite frankly, has never been part of the 
lexicon. I have worked on the EAC's voting voluntary system 
guidelines and the glossary of those documents for years, and 
it has never been referred to as universal vote-by-mail 
elections.
    So in this moment, we are seeming to redefine phrases that 
are being used as though there is a definite distinction across 
all States and, unfortunately, that is just not the case, 
because you do have States where they have both. They call it 
absentee voting if you are 65 years of age or older or have a 
permanent disability and you are on a permanent list, or they 
call it vote by mail if you send in an application to vote in 
that specific election.
    So, unfortunately, we have so many different terms. Some of 
those terms are used for the same process and some of the 
processes use different terms in a given State.
    Mr. Rogers. Right.
    Ms. Patrick. So I hope that helped to clarify.
    Mr. Rogers. Well, the concern that I have got is, you know, 
I was a county commissioner back in the 1980's, and I am 
familiar with how we ran the processes, and we always had 
problems trying to keep our voting rolls cleaned up, because 
people move, people die, and it is just--it was a perpetual 
problem and continues to be. I worry if we just start sending 
ballots out to people because they are on voting rolls, that it 
could lead to fraud.
    But with that, my time is expired. I thank you for being 
here.
    I yield back, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentleman from New Jersey for 5 
minutes, Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here today.
    In addition to accepting ballots returned by mail, many 
election offices give voters the opportunity to return ballots 
in drop boxes throughout the city. I support this effort to 
provide voters more ways to return their ballots but have 
concerns about the security of the ballot boxes. CISA is 
responsible for providing election officials advice on both 
physical and cybersecurity and has several guidance documents 
related to election security.
    Secretary Benson and Secretary Adams, what advice, if any, 
has CISA provided you about the security vulnerabilities 
associated with ballot drop boxes and how to mitigate them?
    Ms. Benson. Well, I will start. Thank you, Congressman.
    Now, to date, we, as I have mentioned, provided nearly a 
thousand drop boxes to election jurisdictions across the State 
of Michigan. [Inaudible] you see [inaudible] to emphasize 
[inaudible] to meet the needs of our voters this year, and I 
want that to be recognized. [Inaudible] have succeeded in our 
elections this year [inaudible]. Our drop boxes are located 
[inaudible] many are located inside city halls [inaudible] 
those doors are typically under surveillance by the cameras 
[inaudible]. We also had clear chain of custody [inaudible].
    To answer your specific question about CISA, we are in 
regular communication with them, and oftentimes it is a 
reactive communication where they are sharing with us 
information that they hear of that we should know about. But 
that said, our partnership with them is one that is very 
robust, and our communications have been significant. You know, 
I am sure that if they hear of any credible threats in the 
security of our drop boxes, they would share them with us.
    Mr. Adams. I----
    Ms. Benson. Go ahead, Secretary.
    Mr. Adams. OK. Sorry about that.
    So thank you, Representative. So I will just second 
everything that Secretary Benson has said with regard to CISA 
drop boxes. I will add this: This is pretty novel for our 
State. Again, historically we have about 2 percent of voters 
vote absentee. There really hasn't been a demand to necessitate 
drop boxes. They are expensive. They are about 2 grand apiece. 
They are like tanks.
    So it is an expense that we haven't invested in 
historically. But I found, interestingly, that the demand for 
drop boxes in my State in the primary came from Republicans. I 
was a little dubious that we could get this done without a big 
firestorm, but actually it was Republicans that liked the drop 
boxes. I won't represent that that is a universal viewpoint, 
but what I found is a lot of Republicans are comfortable 
applying for a absentee ballot and getting it, voting at home 
safely, and then just don't want to mail it back. They want to 
bring it back. They want the personal satisfaction of dropping 
a vote into a bin and knowing it is in the bin. So we actually 
found that there was greater like of drop boxes on the GOP side 
than on the Democratic side in our June primary.
    We have really strict protocols. Back in the primary, we 
only gave each county a smattering of them, and we told them to 
put them inside the clerk's office or inside a government 
building. Looking back, I think that was maybe a little bit too 
restrictive, because a lot of these buildings were closed or 
had limited hours and were trying to avoid people indoors with 
this pandemic. So in November, we are going to have more drop 
boxes and we are going to put them outdoors, but we are going 
to have them under continuous monitoring by government 
officials to make sure that there is no hanky-panky with them.
    But to be frank, these things are more secure than 
mailboxes. Mailboxes are pretty secure, but these things are 
mailboxes and then some.
    [Inaudible.]
    Chairman Thompson. You have to unmute yourself.
    Mrs. Lesko. Hi. This is Congresswoman Debbie Lesko.
    You know, I have to tell you that I get a little bit 
frustrated when we continually, at the opening statements, Mr. 
Chairman, you continually, I think just about every time, you 
have bashed President Trump, and I would actually like to try 
to get some bipartisan stuff done. It is just frustrating to 
me.
    You know, there was a--I have to ask a question for 
clarification from Ms. Patrick. Ms. Patrick, I understood you 
to say when Mr. Rogers asked you a question about the 
difference between, you know, a requested ballot versus 
universal mail-in ballot, which would mean that every 
registered voter received a mail-in ballot, and you had said 
something to the effect of, unless I misunderstood you, that, 
oh, we just have these permanent early voter lists which 
basically, as you know, in Arizona, if I wanted to be on that 
list, I as a voter request to be on that list. I am not just 
automatically sent a mail-in ballot.
    But yet there are States, in my understanding, that every 
registered voter does get mailed a ballot. They didn't request 
it. It is Washington, Oregon, Utah, Colorado, Hawaii.
    So can you clarify your statement, please?
    Ms. Patrick. Yes, absolutely. I am sorry--and thank you for 
bringing that up, Representative Lesko. So what I was meaning 
to more clearly define is that some States say vote by mail 
even if you need to submit an application. So whether it is a 
permanent application to get on the list or whether it is 
basically an application for a vote-by-mail ballot. So, when we 
take a look at some place like Florida, you apply for every 
election that you want to get a ballot, but they don't call it 
absentee voting. They call it vote by mail.
    Mrs. Lesko. Thank you.
    Ms. Patrick. You are correct that there are also all-mail 
elections, and there are States that do that. In fact, of 
course in your home State of Arizona, many localized elections 
for more than a decade have been all-mail elections at the 
county level, just not at the State.
    Mrs. Lesko. Thank you for clarifying because there is a 
concern. I think what President Trump is saying is there is a 
concern that all registered voters would get automatically 
mailed a ballot versus a voter requesting a mail-in ballot, 
which is done in Arizona, and we have been doing it in Arizona 
for years. Like the other secretary of state said, that they 
check the signature.
    But I guess I am going to ask the Kentucky secretary of 
state, don't you think there is a risk of voting--every single 
person on the voter registration list a ballot? Because I don't 
know about in your State, but in our State, there is 
certainly--the voting rolls aren't always updated. So you are 
going to have people that are still registered at an old 
address. You are going to have people that have died that 
haven't been taken off the rolls because it is often a little 
bit difficult to get the name off of the rolls because I think 
in Arizona it is still the law where the person has to get it 
like 3 times mailed to them, and the person that receives it 
saying, ``No, this person isn't here anymore.'' That is my 
question to you.
    Mr. Adams. Well, sure, there is a big difference, from my 
perspective, in Kentucky between a universal vote-by-mail 
system and an absentee-ballot system. On the West Coast, they 
register people automatically to vote if their name is in a 
government database. Again, I have confidence in my colleagues. 
I think they are people of integrity, but that to me, for 
Kentucky, would not be a good system.
    One of the issues I ran on for this position last year was 
getting our voter rolls cleaned up. During the campaign, it 
came out that we had about 200,000 people on our voter rolls 
out of 3.4 million registered voters--people who had either 
moved away, passed away, or been put away. I have actually 
thought that number was low-balled.
    As part of our election agreement, the Governor and I sent 
postcards to everybody on the voter file. We got about 400,000 
of those cards back in the mail undeliverable. So we are in the 
process of removing those people within the time period that we 
are permitted to do so by law. So, in Kentucky, that would just 
be a nightmare, just mailing ballots out through the phone 
book. I wouldn't advocate for that.
    Mrs. Lesko. All right, thank you.
    Mr. Adams. But I would--yes.
    Mrs. Lesko. Thank you.
    Just a closing statement, Mr. Chairman. You know, it is 
frustrating to me, we already passed--the Democrats already 
passed their post office bill, and here we are, almost a week 
later--it was last Saturday--and we are doing this, like, 
almost a week later, in a committee that doesn't even have 
jurisdiction. To me, this doesn't make sense. I yield back. 
Thank you.
    Chairman Thompson. Well, gentlelady, I read into the record 
the responsibility for this committee. Your concerns are noted. 
Everything I said about the President came out of his mouth. So 
I am only repeating what President Trump has said. Now, if you 
don't like what I repeat, then you need to tell the President 
not to say it. As long as he says it, I am going to repeat it.
    The Chair recognizes the gentlelady from New York, Miss 
Rice.
    Miss Rice. Thank you, Mr. Chairman.
    Ms. Benson, in 2016, we saw just how easily a hostile 
foreign government can wreak havoc by using social media to 
spread disinformation and sow doubt and cynicism about the 
democratic process, including by trying to make people believe 
their votes won't count. Now, while here we are 4 years later, 
we know that there are still hostile foreign governments doing 
that very same thing. We are unfortunately hearing this similar 
kind of misinformation, disinformation, and outright lies 
directly from the Oval Office, from the President himself.
    You, Secretary Benson, yourself, have been on the receiving 
end of one of President Trump's Twitter attacks against voting 
by mail in which his original tweet was actually false, and he 
withdrew it and then filed another one. But my question is, how 
do you address the issue of dealing with misinformation and 
disinformation to the people that you represent? Specifically, 
how are you able to convince voters that this process is 
legitimate and that their vote is going to count and matter?
    Ms. Benson. Well, you are right. The challenges this year, 
like never before, are that--are attempts to hack the voter's 
mind. You know, noting that we are here, that I am here today 
before the Committee on Homeland Security, there is a real, in 
my view, connection to the work that we do and the work that 
you all do in that protecting the security of our elections is 
as critical this year as it has ever been. Now, that takes 2 
forms--No. 1, our infrastructure, making sure our voter rolls 
are secure and impervious to any types of hacking, which we 
have increased the security of, conducting post-election 
audits, risk-limiting audits, that we are now piloting and 
implementing State-wide which, of course, confirm that the 
machine counts of ballots are accurate.
    That infrastructure security is key. All of the States, 
many of the States, have been really ramping up their efforts 
in partnership with the Department of Homeland Security and 
CISA this year, and then that feeds into our work to protect 
voters from efforts to hack their mind and sow seeds of doubt 
about the integrity of our elections.
    The bottom line for me is that, this year, the results of 
our elections in Michigan and, I believe, Nation-wide will be 
an accurate reflection of the will of the people. Our elections 
will be secure. What the unknown is, what the challenge is, is 
ensuring that everyone knows that, that regardless of who they 
vote for, that they will have faith at the end of the day that 
the system was secure and that their vote was counted.
    Now, efforts to sow those seeds of doubt in our 
electorate's mind have come from domestic sources and from 
foreign sources, this year more than ever before. What we have 
done is a number of things, in part, constant communication 
with our colleagues in other States because none of us need to 
re-create the wheel, and we are all dealing with this together. 
There is a lot of bipartisan collaboration with the secretaries 
this year that I am really proud to be a part of.
    Second, we have established a website, Michigan.gov/
election security, which we will keep up-to-date, pushing back 
on every rumor or piece of misinformation that is reported to 
us and proactively also sending out information that gives 
voters confidence that we are on it, that our system is secure, 
and that our decentralized system of elections in Michigan, 
where we have 1,500 local jurisdictions all running elections 
actually helps to eliminate the possibility of any type of 
massive or State-wide effort to impact the security of the 
system.
    That said, we all have a role to play. We, at the secretary 
of state's office, can get out the trusted information and 
develop it. But we all have a role to play. You all have a role 
to play. Every voice has a role to play this year in sending 
out that trusted information, being trusted messengers of that 
information, on social media and otherwise. That is why we have 
partnered with professional athletes, business leaders, and 
other influencers to help us get that information out in a way 
that will reach the voters and push back against the rhetoric 
that is only going to increase in the weeks ahead and deliver 
trusted information about the sanctity and security of their 
vote.
    Miss Rice. Thank you.
    Secretary Adams, you mentioned something that, you know, 
brought me back to what happened here in New York, my home 
State, on our primary day back in June. Because of the 
pandemic, more people took advantage of voting by mail because 
they did not feel safe going to vote in person. As a result, I 
don't think that New York was prepared, we didn't have the 
appropriate infrastructure in place to be able to get results 
as quickly as possible, right? So there were some races that 
weren't called for, you know, 6 to 8 weeks which, of course, 
feeds into, you know, the President's misinformation and 
disinformation about, well, you know, if we can't call any 
election on election night, then that means whatever result 
comes thereafter is necessarily suspect and fraudulent and 
rigged.
    So, you know, just asking what your tips, because you 
mentioned in your, I believe in your testimony or in one of 
your responses to your questions that you had, like, a 
quadruplefold of mail-in ballots that came in because of the 
pandemic. So, if you could just talk about what ways that you 
shored up your infrastructure--your election infrastructure--to 
ensure that you could count every vote and do it as quickly and 
efficiently as possible.
    Mr. Adams. Sure. Thank you, Representative. So we did a few 
things that were new and unique. We allowed the local officials 
to begin processing absentee ballots much earlier, not 
announcing any results, of course, but running the ballots 
through the machines. We calculated that would have taken about 
a month to count them all if we had not let them get started 
earlier. So we let them start earlier. It still took a good 
week for us to get all the ballots counted, but it would have 
been even longer without that.
    We also invested in new equipment. We used HAVA dollars we 
had left over that you all gave us back in December. We also 
used CARES Act dollars to buy scanners and other equipment, 
sorters, so our counties could get up to speed. We had 29 
counties when I took office that had no machine at all capable 
of having a paper trail. So I think we are pretty close. I 
think this year we will have actually every county up to speed 
on having that capacity.
    Something that we are doing for November that is unique 
compared to the primary is we are actually starting the 
availability of absentee ballot requests earlier but also 
closing it earlier. We only had about a month back in the 
primary just because of the press of time. The virus developed 
so late with our primary, we only had about a month to both get 
the absentee ballots requested and out and also do early voting 
at the same time, and it was a real crunch on our election 
officials at the ground level.
    This time we are doing it in stages. We opened up our 
portal for requests about a week ago, and we are going to close 
it in early October. Then that will enable those to be 
processed and allow our county clerks to then pivot to 3 weeks 
of in-person voting. So we are not getting a double whammy at 
the same time.
    So we are going to have 6 weeks of availability for 
absentee ballots for those who need them, and that is a 
subjective decision of the voter. Then we pivot to early in-
person voting. So I think by transitioning in that way, we can 
handle the demand. I think the risk, point of diminishing 
returns, if we had too many absentee ballots cast, there would 
be a concern about a ballot--the clerk's capacity to process 
them, let alone the ability of the Postal Service to manage 
them. But I think we have got it handled.
    Chairman Thompson. The gentlelady's time has expired.
    Miss Rice. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much. The Chair 
recognizes the gentleman from New York, Mr. Katko, for 5 
minutes.
    Mr. Katko. Thank you, Mr. Chairman.
    It is good to see everybody again.
    Ms. Benson and Mr. Adams, these questions are kind-of 
focused on you because you are responsible for the election 
security in your States. We did a series of roundtables down in 
Washington last year, earlier this year, and I did a roundtable 
in New York State. What we learned from the roundtables is that 
the election ISACs inundate the local board of elections folks 
with information, and they are not always able to appropriately 
filter and appreciate the importance of those directives.
    A woman who is a part-time person who is on the board of 
elections in Oswego, one of 62 counties in New York State, said 
that last year she had 1,672 directives from the ISAC. She is 
not trained in cybersecurity. She is not trained in 
electronics, and the person that she works with on her computer 
systems is--has many other tasks within the county, is only 
very part-time at the board of elections.
    So, based on that, when Congresswoman Rice and myself 
introduced H.R. 8011, the Cyber Navigators Act, and so we are 
just trying to get a feel, and what it does is establishes 
grant funding to States for cybersecurity experts and basically 
to just share IT folks that are laser-focused on election 
security and board of elections issues only, and just help me--
provide technical support as well--and I just want to try to 
get a little idea of what the problems are in you two's States. 
Do you see similar things with getting inundated with 
information from the ISACs, and would this type of bill that I 
described be helpful to you? Ms. Benson, go first, please.
    Ms. Benson. OK, thank you. Yes, it would. I mean, I think, 
again, in our view, team sport. You know, partnerships are key 
to success, sharing of information, communication. There is no 
role for that of, you know, withholding of information or 
partisan agendas when it comes to just making sure our 
elections are acceptable and secure is my approach.
    So, for us, we talk regularly and partner with our 1,500 
local election administrators, but it is 1,500 throughout the 
State of Michigan. The more support, the more investment, the 
more we can invest in their election infrastructures through 
support of Federal funding--and I do believe that standards are 
important as well and that the Federal Government has every 
right to say, ``If you are going to accept our funds, you have 
to meet these guidelines.'' I think that has actually worked 
quite well in the past, with the Help America Vote Act and 
other election sources of funding.
    So, that said, you know, I completely support the concept 
of cyber navigators and have worked with other State agencies 
to evaluate and improve local and county infrastructure, and 
the more support that we can have from our Federal Government, 
the more effective we will be able to be in doing that.
    Mr. Katko. OK. Great. Thanks.
    Mr. Adams.
    Mr. Adams. Thank you, Representative. I am happy to take a 
look at your and Representative Rice's bill, but it sounds like 
a really great idea. It is an issue that we have talked about 
here in Kentucky is cyber navigators. We have a decentralized 
election system. I like to tell people we don't have an 
election in Kentucky; we have 120 elections. We have 120 
counties with their own election officials, and those people 
have responsibility for other tasks too. Ultimately their 
election system is only as good as their local cybersecurity.
    So I have encouraged our county clerks to work very 
directly with the ISACs. I have tried to build those 
relationships between the Federal Government and the local 
governments. I do know the ISACs tend to send out a lot of 
information, and it is not always--if you get 3 emails a day, 
sometimes you wonder, you know, on this one, is it a big deal? 
But they do a great job. They have been really valuable 
partners.
    I do think it would be helpful if we had some folks 
available, maybe to travel the circuit and hit county spots. 
When I traveled around my State campaigning, I saw that some of 
the clerks' offices didn't appear to have secure WiFi. I think 
that has been improved since then.
    But I do have concerns occasionally also about the physical 
plan that some of our county clerks offices, they are in old 
courthouses, built in the 1800's sometimes, and just not 
designed for tight security. You know, they have got windows 
and that sort of thing where that might be access. So, to be 
clear, you know, we have reviewed all of this. We feel like we 
are in a good position, but we could always get better.
    Mr. Katko. OK. Ms. Benson, if it is 200 election districts 
and 1,500 people responsible in those election districts, I 
would just respectfully suggest--and I think you agree--that 
what we are contemplating doing is having IT people that only 
work with you folks, and they are yours. You hire them. But 
they help monitor your systems and digest what the ISACs are 
saying so that you can better secure your systems, because we 
have had a lot of talk today about the Postal Service. We even 
had a robust discussion about the real big concern down the 
road is, are we going to have ransomware attacks? Are we going 
to have attacks from the Russians that are going to disrupt our 
services? So I ask you both to take a look at this bill and 
give me your thoughts because it is picking up steam, and I 
really want to try and help you with this as much as I can.
    Ms. Benson. We will. If I could mention that we did--with 
our past Federal HAVA security funding, we were able to hire a 
full-time election security director for the first time in our 
State who has been responsible with working directly with our 
local counties [inaudible] their infrastructure, their 
websites, and the security. So additional support will help us 
get even more efficient in that regard, and we will take a look 
at the legislation and offer what support we can. Thank you.
    Mr. Katko. OK.
    Chairman Thompson. Thank you very much.
    Mr. Katko. Thank you.
    Chairman Thompson. The gentleman's time has expired.
    I recognize the gentleman from California, Mr. Correa.
    Mr. Correa. Thank you, Mr. Chairman, for holding this most 
important hearing. Can you hear me OK? Can you hear me? Yes? 
Yes. Thank you very much. I wanted to follow up on some of Mr. 
Katko's comments, and I have a question directed at Secretary 
Benson and Secretary Adams. As you know, Russian interference 
in the 2016 election is well-documented, their attempt to 
influence our election, and 21 States actually were breached by 
cyber attacks. So my question to both secretaries is, are you 
seeing any repeat of the 2016 elections with reference to cyber 
attacks, cyber probes of your systems today?
    Ms. Benson. Secretary Adams, would you like to take that, 
or would you like me to?
    Mr. Adams. Sure. Thanks. Yes, sure. So we have not been 
breached, but there has been rattling of our doorknob, let's 
put it that way. I don't want to get too specific in this 
setting. Happy to share more----
    Mr. Correa. You are getting knocks at the door. You are 
getting knocks at the door.
    Mr. Adams. That is exactly right. So I appreciate the point 
you are making, Representative. All of our other problems don't 
just go away because we have got this big equipment problem. We 
still have to keep our eye on the other balls, cybersecurity 
being one of the foremost.
    Ms. Benson. I will just add that we have been consistently 
monitoring, in partnership with our local governments and the 
Federal authorities, the potential for threats. We have also 
increased the security around our qualified voter file, 
implemented State-wide audits, and convened an election 
security task force with National experts, including 
representatives from Federal Government, to help advise us on 
how to increase the security of our system.
    So that said, we have not encountered, as, you know, our 
neighbors in other States may have, any significant attempts at 
the State level or at any local levels, to interfere with our 
system. But, you know, we are 60 days out, and a lot can happen 
in those 60 days. So the bottom line for us is we are prepared, 
if that knock comes, to push back and also to publicize it and 
raise awareness about it so that people know the facts and the 
evidence of what has happened and exactly what we did to stop 
any potential attack and protect our system.
    So we are prepared to protect the system, and we are 
prepared to identify any attacks before they occur, and I am 
confident that we will if that happens.
    Mr. Correa. Another question to Secretary Benson and 
Secretary Adams. You know, this morning, as I was driving into 
work, I heard a story on the radio that nursing homes, the 
seniors at our nursing homes, there is a concern that they may 
not be able to have their votes counted because they rely on 
vote-by-mail exclusively to vote. I thought to myself, what 
about our servicemen and -women around the world that also vote 
by mail? What assurances are you--what steps are you taking to 
make sure that seniors and our service members have their votes 
received and counted at your local respective States? Thank you 
very much.
    Ms. Benson. Thank you. That is such an important question 
on both fronts, and I will take both. It kind-of is captured 
by--the bottom line is we are doing everything we can 
administratively, within our existing statutory authority in 
Michigan and the funding that we have, to secure and ensure the 
votes of our seniors and our military and overseas voters are 
counted. But we have some challenges and I will talk about 
that. On the--for our senior citizens, making sure that either 
drop boxes are accessible, are, you know, are available to 
those who may not feel comfortable returning their ballots 
through the mail, are important, and identifying the specific 
needs of each particular community is, you know, important. 
Also, of course, protecting them from outside individuals 
coming in at this unique moment in the pandemic.
    So, where we have also had to move polling locations that 
were in senior centers to other locations, we have done that 
ahead of time, proactively in most cases, to also protect the 
health and safety of those individuals and then work to ensure 
that they can still access their vote either through the mail, 
voting early, or in person, and again that underscores why 
choices are so important.
    With regards to military and overseas voters, as 
Congresswoman Slotkin mentioned earlier, I have personal 
experience with this as a military spouse. In Michigan, ballots 
can be electronically delivered to overseas voters but must be 
returned via U.S. mail, and that is in our law. I have called 
on our State legislature to change that and allow the 
electronic return from--or the fax return from military members 
overseas and their spouses and their dependents, in particular. 
But we are waiting on them to act. We need them to act because 
this action is critical in the face of this year's particular 
challenges where we have already heard from numerous voters 
living overseas, whether serving in the military or for other 
reasons, who cannot access the mail due to the pandemic.
    So, for them, we are working on finding other options, but 
nothing really is a substitute for the action that we need from 
the State legislature to enable our overseas voters to more 
easily return their ballot through a secure, electronic method 
as many States already allow. So my hope is we will get some 
changes there, but we are also looking for other avenues and 
workarounds in the next few weeks to ensure that we are--that 
we are working with our overseas voters to protect their votes.
    Chairman Thompson. Thank you very much. The gentleman's 
time has expired. We recognize the gentleman from Pennsylvania, 
for 5 minutes, Mr. Joyce.
    Mr. Joyce. Thank you, Chairman Thompson and Ranking Member 
Rogers. This is a question I think we are going to direct 
specifically to Secretary Adams and Secretary Benson. What has 
the Commonwealth of Kentucky and the State of Michigan, what 
has been done to clean up your voter rolls to ensure that 
ballots are being sent out to who are truly eligible voters? 
Secretary Adams, I will ask you to answer first, please.
    Mr. Adams. Thank you. As I said a minute ago, it is an 
issue that I ran on; it is one I take really seriously. 
[Inaudible] to report to move this as quickly as I can, but 
also per my agreement with our Governor, part of what I got 
from that for my side was a much prompter, much more aggressive 
movement toward compliance. The law that requires us to keep 
our voter rolls clean was passed by, I should say, a Democratic 
Congress and signed by Bill Clinton. It is not a partisan issue 
to keep your voters rolls up-to-date. There is just no 
legitimate interest in not having that.
    So part of what we did is we did a mailing, as provided for 
in the National Voter Registration Act. It was in the form of a 
postcard informing voters of their new options to vote by 
absentee ballot by mail, by drop box, or early in person or on 
election day in-person, and that gave us a way to inform the 
public, but it also gave us a way to get notices back 
undeliverable and put people in the queue for removal from the 
rolls.
    Something else that we did that was part of that agreement 
was, the people that are identified as having returned 
postcards, they get a letter from me that explains that it is 
an offense under our criminal law in Kentucky to knowingly be 
dual-registered and certainly to vote in more than one State. 
So those letters have gone out, and we are getting responses 
back. We are taking people off the rolls--with their written 
consent. We are not purging people right before a Presidential 
election, but we are removing people that we have confirmed 
have passed away through the--working with the Democratic 
Governor of my State and his bureau of [inaudible] statistics.
    So, between that partnership, removing our dead voters, and 
also actively seeking out and finding people who have moved and 
getting their consent to remove them, we have actually made 
significant process. We had a month recently where we took off 
more dead voters than we added live voters. It is pretty 
amazing to see in a Presidential year when you see a lot higher 
voter registration.
    Mr. Joyce. Thank you. I think that is great. The removal of 
deceased voters in your Commonwealth, that is very important 
for a fair and safe election.
    Secretary Benson, would you like to answer this as well?
    Ms. Benson. I would, yes. I want to emphasize that here in 
Michigan--and I have said this for years now--we believe that 
good healthy election administration is about making it easier 
to vote and harder to cheat. The efforts that we have 
implemented to clean up our voter rolls really began on Day 1 
when I took office and I joined ERIC, the Electronic 
Registration Information Center. That partnership, which is a 
collaboration of the majority of States--I think close to 30 
now in our country--enables us to be in constant and frequent 
communication to track individuals who mail--I am sorry--who 
move to other States and perhaps register there, enables us to 
then update our records accurately, and it similarly enables us 
to proactively identify and remove voters once they have been 
deceased. So joining ERIC was very critical as a first move.
    Second, what we have done is implement automatic voter 
registration. Now, what that has done is not only made it 
easier, much easier than ever before, for our citizens who are 
eligible to vote to become registered voters. But it also 
requires us, every time someone comes to our office to get a 
driver's license or State ID, or update their license or ID, we 
check their voter registration record, and we can increase the 
accuracy of our voter rolls daily now.
    One of the most interesting and unexpected side effects of 
implementing AVR has been that we are able to now consistently, 
daily, across the State, confirm or update or correct errors in 
our voter registration records that may have accumulated over 
years.
    The last thing that we did--and this is important--for the 
first time in 9 years, we did a State-wide mailing, which the 
secretary, my colleague from Kentucky, has emphasized and many 
other of my colleagues as well, is key to also, in addition to 
what I just talked about, making sure we are touching every 
voter and identifying inaccuracies or outdated records. So our 
State-wide mailing, which was conducted this year, which was, 
of course, our mailing to every registered voter of information 
of how to vote by mail and an application----
    Mr. Joyce. I am just going to interrupt you because I just 
have a few seconds. Secretary Adams, we know that, in New York, 
over 30,000 ballots were mailed to voters just a day before the 
June primary. What are you working to do to make sure that 
ballots are mailed out sooner so that you are not scrambling as 
the election approaches?
    Mr. Adams. Well, for the--our normal default in our law is 
a voter can request an absentee ballot up to 7 days before the 
election, and the county clerk has a week to send it back. 
Well, that is election day. So we changed that for November. We 
actually have a deadline of midnight of October 9 for the voter 
to request an absentee ballot other than in case of a personal 
medical emergency. So we have an earlier cut-off to apply for 
the ballot, but that also gives the clerks the ability to get 
it out there faster.
    Mr. Joyce. [Inaudible] expired. Thank you very much.
    Chairman Thompson. The gentleman's time has expired. The 
Chair recognizes the gentle lady from Illinois for 5 minutes, 
Ms. Underwood.
    Ms. Underwood. Well, thank you, Mr. Chairman. The integrity 
of our elections is essential to the preservation of our 
Republic. The on-going COVID-19 pandemic has heightened the 
need for greater flexibility in how, when, and where people 
vote. As I and many of my colleagues have said over and over, 
no one should be forced to choose between protecting their 
health and exercising their Constitutional right. That is why 
it is so important to make sure that Americans can vote from 
home and trust that their ballot will be delivered and counted.
    In addition to its many other essential functions, like 
delivering medicines to the 80 percent of American veterans who 
receive prescriptions through the mail, the Postal Service is a 
critical part of our election infrastructure. During the 
pandemic, a well-functioning Postal Service is more important 
than ever for holding a safe and accessible election this fall.
    Mr. Dimondstein, I think some people watching this hearing 
might not know all the ways that postal workers are involved in 
our electoral process. Can you briefly describe, from a postal 
worker's perspective, why a functioning Postal Service is so 
important for a safe and accessible election?
    Mr. Dimondstein. Well, thank you for the question, 
Congresswoman. Well, from the standpoint of view of the postal 
workers, we touch the mail at all aspects. So we are delivering 
mail to people's homes, and that often goes through--it will go 
through sortation facilities. It will be trucked to carrier 
units so the letter carrier can come to your home that day. So 
clerks, letter carriers, all are touching the mail, and we take 
that responsibility, that sanctity of the mail, that privacy of 
the mail, we treat it as if it is our own. On the other side if 
someone chooses to then mail back that ballot, that gets picked 
up, it may get--somebody may bring it to a post office and drop 
it in a box at the post office or give it to the window clerk. 
Somebody may drop it in a drop box in their neighborhood or in 
their own mailbox, and the letter carrier will pick it up 
because mail can be put into the system that way----
    Ms. Underwood. Right.
    Mr. Dimondstein [continuing]. And it goes back into the 
processing plants, and there postal workers are trained to give 
ballots priority. If it is designed well, it is very 
noticeable, the mail can be identified, made sure that it is 
pulled out of the system. Some States, workers have to put 
the----
    Ms. Underwood. Thank you.
    Mr. Dimondstein [continuing]. The voter puts a stamp on it. 
Other, it is prepaid. That all has to be processed and----
    Ms. Underwood. That is right.
    Mr. Dimondstein. So we are involved with the process----
    Ms. Underwood. Thank you.
    Mr. Dimondstein [continuing]. The whole way and proud to do 
it.
    Ms. Underwood. Thank you, Mr. Dimondstein. It is clear that 
the USPS has a leading role to play in this election, and so 
that is why I am so disappointed that this administration has 
taken on an effort to undermine this essential service with 
operational changes that threaten democracy itself.
    While I am glad that Postmaster General DeJoy has committed 
to reversing or postponing some of those changes, I remain 
concerned about the damage that has already been done.
    I recently spoke with Valerie Savage, the president of 
Local 351, of the American Postal Workers Union chapter in 
Aurora, Illinois. She described some of the recent operational 
changes she and her colleagues have observed at the USPS 
facilities that serve my constituents and others in northern 
Illinois. Ms. Savage says that previously machines were used to 
sort the mail so that letter carriers received it organized by 
the order in which they traveled their route. But now she says 
those sorting machines have been taken out of service, and so 
that mail has to be sorted by hand. Ms. Savage estimates that 
sorting the mail manually takes about 10 times as long as it is 
used to take the machines, which she says could result in 
delivery delays of 2 days or more.
    Ms. Patrick, if Ms. Savage is correct that mail delivery in 
northern Illinois could be delayed by 2 days or more, what 
impact would that have on our State's ability to count every 
ballot in a timely manner?
    Ms. Patrick. Thank you so much for the question, 
Representative Underwood, and in fact, I included a figure in 
my testimony that speaks directly to this issue. Because when 
we had the stand-up talk from the Postmaster General, there was 
a directive saying no overtime, no late trips. We, in fact, 
then saw the pulling of sorting equipment. This is a dramatic 
shift. Even though some of these activities have happened in 
the past, this has been a change in tone, a change in the 
transparency of what is behind changing some of these things. 
So I asked one of my colleagues----
    Ms. Underwood. Right.
    Ms. Patrick [continuing]. Appropriate the figure that shows 
all of the ways in which it can delay. It can be delayed by 1 
day: If a carrier is near the end of their route and their 
shift is ending, do they leave the ballots in the remaining 
mailboxes, or are they able to go and get them? If, in fact, 
they go ahead and complete their route, the truck that is at 
the mail center, getting ready to go off to the processing 
plant, do they wait for them or not? We have seen reporting in 
the last couple of days that the trucks are not waiting, and 
trucks are leaving empty. So this is not a very good policy to 
implement just a month before ballots are being mailed, and it 
has me very concerned.
    Ms. Underwood. I share your concern.
    Thank you, Mr. Chairman, for this hearing, and I yield 
back.
    Chairman Thompson. Thank you very much. The Chair 
recognizes Mr. Garcia from California for 5 minutes.
    Mr. Garcia. Well, thank you, Mr. Chairman, and thank you 
all. This is my first committee hearing. It is an honor to be 
here. I want to thank Ranking Member Rogers for that very kind 
introduction.
    Look, I just want to start with maybe a comment and go into 
a few questions. First of all, I want to say that I fully 
support the letter carriers in our country. The United States 
Postal Service does a tremendous service for our Nation. In 
many cases, the folks out there delivering our mail are also 
veterans, folks who have served on the front lines, and they 
continue to, frankly, serve on the front lines out there, 
delivering our mail, and in most cases in a timely fashion in 
the midst of this COVID environment. So I am a staunch 
supporter of the letter carriers. My uncle was one for more 
than 30 years, and I understand the value that the service 
brings.
    This last piece of legislation, this $25 billion piece of 
legislation, wasn't the right answer to help our letter 
carriers. I support overtime. I think the letter carriers and 
the Nation benefit from the overtime, but this bill didn't 
allow the post office to make the changes necessary to truly 
protect our letter carriers in this COVID crisis. So I will 
just extend the fact that while we--while we also--we can 
support the carriers and the U.S. Postal Service and vote 
against this latest bill, they are not mutually exclusive, and 
I look forward to more meaningful legislation in the future 
that actually does help the U.S. Postal Service and its 
carriers.
    With that, I will pivot to the election elements of this. I 
just went through a special election in May where 423,000 
ballots were sent out with self-addressed, stamped envelopes. I 
think we had over 90 percent of those ballots actually returned 
through the mail, or rather 90 percent of the votes that were 
counted were through the mail. So I am not necessarily too 
concerned about the inability of the post office to get the 
ballots out and returned.
    What is more alarming to me--and I think this is an echo of 
what my colleague from Pennsylvania, Representative Joyce, was 
getting at--is that especially here in the State of California, 
the update and frequency of updates to the registration rolls 
is anemic.
    Just prior to my election but unfortunately after the 2018 
election, the State of California removed about 1.5 to 1.8 
million dead voters or voters who were removed--or moved from 
California to other States. This is a huge number. So I guess 
my question is--and what that ended up doing before the removal 
of those dead voters and folks who had moved was it allowed in 
L.A. county alone about 112 percent of our population to be 
registered as voters. That makes no sense. There is no math 
that allows that. There is no law that tolerates that.
    So I guess the question is, what is at the root cause of 
our inability at the State level to ensure that we are 
refreshing the registration rolls in a timely fashion, not 
after elections, but before elections and with enough lead time 
to make sure that it is being sort-of baked into the election, 
or fully baked in, in steady-state, before the ballots actually 
go out. I guess, Secretary Benson, we can start with you and go 
from there. I realize you guys are not representing California, 
but this is a Nation-wide issue.
    Ms. Benson. Yes. Thank you, Congressman. The 3 things I 
noted about what we have done in Michigan--frequent mailings, 
automatic voter registration enabling us to checking our rolls, 
and joining ERIC--I don't believe, and someone will correct me, 
but I don't believe California is a part of ERIC, and I don't 
know the details around that, but that has certainly been key 
in helping us continue to update our rolls in collaboration 
with other States because people are mobile. So, when there is 
a National change of address--actually, I just got 
confirmation, California is not part of ERIC. So that is 
something that I would recommend--it certainly helped us--as 
well as mailings and the other things I talked about.
    The other thing I will mention about the comparison 
numbers--you mentioned 112 percent registered--we have to be 
careful. What we found in Michigan in looking into those 
numbers is what we are comparing, meaning, if we are using old 
Census data that may be undercounting a community and then 
comparing that to actual voter registration numbers, you could 
get a mismatch of really kind-of almost comparing apples to 
oranges, that doesn't accurate reflect the percentage of 
eligible voters who are registered to vote. So again, you know, 
just would offer that as well. But ERIC and being a part of 
ERIC has been a key part of our ability to improve consistently 
the accuracy of our rolls.
    Mr. Garcia. OK. Thank you. I am out of time, but I would 
love to get the specifics on that. Maybe we can help out the 
beautiful State of California to get on-board with modern 
technology. That would be fantastic.
    Chairman Thompson. Thank you very much. Time is expired. I 
recognize the gentle lady from Michigan, Ms. Slotkin, for 5 
minutes.
    Ms. Slotkin. Thank you, Mr. Chairman.
    Mr. Correa took sort-of the part of my question, which is 
great. I am just concerned, I guess, as an Army wife and an 
Army stepmom, that we have got, I think, over 200,000 uniformed 
military serving overseas. Can you just walk through--I am 
sorry--again the way that they are going to be able to vote? 
The problem I have is this idea that they are literally over 
fighting for the very democracy that we are talking about here 
today, and because of the delays in getting ballots out and 
back and the whole thing, I am worried that literally the 
200,000 serving abroad and then the extra 700,000 that are 
serving inside the United States not at their duty station--not 
at their voting location, excuse me--are going to be completely 
disenfranchised. So convince me, Secretary Benson--I know this 
issue is close to your heart--that we are not going to be 
disenfranchising our veterans, especially serving abroad.
    Ms. Benson. It is a risk, I will just say that, in Michigan 
because right now, in Michigan, ballots can be electronically 
delivered to overseas voters but must be returned via the mail. 
As I mentioned earlier, we need our State legislature to change 
the law to allow the electronic ballot return securely. This is 
something that we know other States do. Even at a time like 
this, where numerous voters living overseas cannot access the 
mail due to the pandemic, we need solutions, and we need our 
State legislature to be a partner in developing those solutions 
because democracy is a team sport and that partnership is key, 
and there is only so much I have the authority to do or that 
Congress has the authority to do. We need our State legislature 
to act.
    So, in addition to that, as we wait for them to act, I will 
note that in many States, the ability of an overseas voter to 
return their ballot other than through the Postal Service, 
which is what we are looking for, alternative avenues of 
return, has more to do with where the overseas voter is living 
rather than who the voter is, meaning that some laws authorize 
return options based on whether a voter is living in a hostile 
fire, imminent danger zone. This would be true, you know, 
whether the voter is in the military, family of the family, or 
a civilian overseas, who, you know, based on where they live, 
the availability of the standard Postal Service, or 
inavailability of it, requires an additional workaround.
    So you know, my office has been asking, since I took 
office, for a change to this law, to enable more paths. We also 
hope, you know, that there is opportunities for others to 
advocate for those paths or to offer alternative ways of 
individuals to deliver and return those ballots, but it is a 
critical issue. It is something that we cannot solve alone. But 
it is something that weighs on my heart greatly because we have 
to solve it for November.
    Ms. Patrick. Would it be OK if I jump in there?
    Ms. Slotkin. Thank you. Secretary of State Adams, can you--
oh.
    Ms. Patrick. I am sorry.
    Ms. Slotkin. I just want to shift the topic if I could, if 
that is all right. Secretary of State Adams, can you help us 
understand your view of using uniformed military at polling 
locations? I am concerned about the general issue of either 
uniformed military or law enforcement being placed in any way 
at our polling locations or in the administration of our 
elections. I understand that, in Kentucky, you had the Guard 
called out in some form or fashion, I don't know exactly how, 
but can you give us your views since we have heard the 
President talking about placing law enforcement at polls. Just 
help me understand where you come at this.
    Mr. Adams. Thank you, Representative. So, to be clear, the 
Governor did call out the Guard. We have a great partnership 
with them, but they were not in uniform, and they served a 
purely support role. They helped in sanitization. They helped 
move the equipment around and that sort of thing, but they were 
not poll workers--that is not even out of uniform. So--and that 
was an offering that we made--it was voluntary for acceptance--
to our counties. About half of our counties said, ``Yes, we 
will take it.'' Half said no.
    We had a very unfortunate shooting of an individual during 
a demonstration who unfortunately was killed by a member of the 
National Guard, and so that came a few weeks before election 
day, and that was, I think, another reason why there was some 
reluctance to utilize the Guard even in that sort of limited 
fashion.
    So, in Kentucky, we actually have a law that to be a poll 
worker, you have to live in the county, absent some sort of 
special permission. So it is just not really feasible for us in 
any event, without a change to that law, for us to utilize our 
National Guard as poll workers. There is also the concern that 
some people can find that to be intimidating, but we had----
    Ms. Slotkin. Yes. Thank you for that, sir. I appreciate you 
raising that because I think the specter of the President 
saying he wanted to bring law enforcement potentially into our 
elections process, when he tweeted that, the intimidation that 
comes from having uniformed or law enforcement personnel at 
polls should not be underestimated. I appreciate your answer on 
that.
    Thanks very much, Mr. Chairman. I am out of time.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentleman from Missouri, Mr. 
Cleaver, for 5 minutes.
    Mr. Cleaver. Thank you, Mr. Chairman, and I thank you and 
the Ranking Member for the meeting.
    Frankly, I am pleased that you would place this issue on 
our committee agenda because we are, you know, less than 80 
days out from an all-important election. I have a grandson who 
is upstairs in my home right now in bed with corona. There are 
3 of us in the house, and all 3 of us sleeping in separate 
rooms.
    The point I want to make is that this is an awful disease, 
and we should not force anybody to go stand in line and--making 
them susceptible to this deadly virus. I get a little emotional 
talking about it, but I want to ask our panel whether or not 
they believe that there is such a thing in the world as voter 
suppression. Just, you know, we can go from left to right.
    Ms. Benson. I will go first on that because we are fresh 
off of an experience of just that, Congressman. First my 
sympathies, my condolences, to your family. I know how 
challenging and uncertain this moment must be healthwise. So my 
heart goes out to you, and we will keep you in our prayers.
    Mr. Cleaver. Thank you.
    Ms. Benson. The issue with voter suppression is, as we saw 
evidence. I believe in data and I believe in, you know, 
[inaudible] decisions, as we saw first-hand yesterday, 
[inaudible] remarks that specifically said that, if you vote by 
mail, which is something [inaudible] so they have [inaudible] 
bad things will happen that are [inaudible]. In my view, 
[inaudible] because this is the tip of the iceberg [inaudible] 
for efforts to try to discourage people from voting one way or 
another, or voting at all, with false information, [inaudible] 
scare tactics, that was the case for this particular 
[inaudible].
    Mr. Cleaver. Thank you very much. Let me ask our secretary 
of state, do you believe that the intelligence community is 
correct, or do you think they are making up the delivery of 
that intelligence to us, that not only did the Russians 
interfere with the last election, but they are already involved 
in trying to disrupt our--what they want to really do is sow 
discord in the Nation? But one of the ways they do it is, of 
course, trying to convince us that democracy doesn't work, 
voting doesn't work.
    So do you believe that that is a truth, that our 
Intelligence Committee is making all the--all of the 
intelligence agencies had a meeting at a restaurant and decided 
to lie to the American public about what the Russians are 
doing?
    Ms. Benson. Would you like me to----
    Mr. Cleaver. Yes.
    Ms. Benson. Sure, if it was directed at me. We have, been 
just trying to, you know, cut through the noise and the 
rhetoric this year and speak directly with those doing the work 
and have found, you know, that evidence exists, as we all know, 
and as Congress and the U.S. Senate has found, of clear efforts 
to interfere with our elections.
    What that means for us, as we prepare for November, is that 
we have got to [inaudible]. We have got to be aware of all the 
data of what has occurred before, and we speak just directly to 
our law enforcement agencies, the FBI, and everyone involved in 
election security. We have asked continuously for the 
information [inaudible] those who are involved in [inaudible]. 
So I am confident that [inaudible], that it is not a partisan 
issue [inaudible]. And we will continue to [inaudible] in what 
we are doing to protect [inaudible] in collaboration with those 
at the local, State, and Federal level.
    Mr. Cleaver. I think my time is running out. The reason I--
that was not going to be my initial line of questioning, Mr. 
Chairman, so I apologize. But I just wanted--some of my 
colleagues who are good and decent people, were critical of 
you, Mr. Chairman, about why would you place the postal issues 
on the agenda for Homeland Security--Homeland Security--
Homeland Security. If we have an impending invasion by Russia, 
it would seem to me that this would be an appropriate issue, 
Mr. Chairman, and so I want to thank you very much for putting 
this on the agenda.
    I yield back.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentleman from Louisiana, Mr. 
Richmond, for 5 minutes.
    Mr. Richmond. Thank you, Mr. Chairman, and hopefully I 
don't have to use all that time, but let me just go to 
Secretary Adams really quickly and ask, what we saw in Kentucky 
was a rapidly expanded mail-in voting process. Quick answer, 
yes or no, would be, did you see wide-spread fraud or abuse in 
the mail-in ballots?
    Mr. Adams. No, sir, not in our State.
    Mr. Richmond. OK. But also I saw some reports that we 
reduced tremendously the number of polling places. That is also 
true, right?
    Mr. Adams. Well, that wasn't my decision, but, yes, we had 
individual counties make decisions to reduce their locations, 
which was necessary because the locations weren't available. 
They were places of worship that were closed due to a stay-at-
home order, they were nursing homes and so forth. We also have 
a drift of poll workers.
    Mr. Richmond. Let me ask a question in your experience and 
I will rely on my experience. My experience is that if you want 
the full participation of voters, you make voting as accessible 
as possible. So when we reduce polling places, No. 1, we create 
longer lines, and No. 2, we create more travel burdens for 
people to get there. Do you agree with that?
    Mr. Adams. Well, I agree that if the polling locations are 
available and the poll workers are available, you should open 
the polls. What we didn't want to have happen in Kentucky, and 
didn't have happen, is what happened in Wisconsin, which is, 
they tried to open up sites and people didn't show up, and then 
the voters were disenfranchised.
    Mr. Richmond. No, no, I understand that. But I want you to 
listen to my question very carefully. Do you agree that the 
burden of traveling further could likely reduce participation 
in the democratic process? Do you also agree that the long 
lines that would ensue were also a burden to the democratic 
process because people may or may not have the time to wait in 
line, people may not have the stamina to wait in line, and the 
burden of travel to get there? So do you agree that that is 
also a burden to the democratic participation in the democratic 
process?
    Mr. Adams. Well, I certainly do agree with that. It is less 
of a burden if you have got absentee balloting available, but, 
sure, it is a burden.
    Mr. Richmond. Let me jump just really quickly to--and 
everybody can answer on this--just the ability of the Federal 
Government to help you, CISA for example, in terms of making 
sure that your election is both safe, transparent, and that we 
have back-up to ensure that the election results are what the 
people's will dictates.
    Ms. Benson. I will respond to that, if I could, 
Congressman, and thank you for your service and your questions. 
I think, in our experience, we have had a great working 
relationship. The only challenge--and I think this is worth 
mentioning--is, who hears first when there is a problem? Is it 
the local election official, or is it the State? Myself and my 
colleagues have worked to kind-of make sure the State knows 
about it when a vendor we use or when a local jurisdiction in 
our State encounters a problem. I think we have gotten a little 
bit better on that line of communication, but just so that you 
all know, that has been a consistent conversation we have been 
having Nation-wide among my colleagues and the representatives 
of CISA to make sure, again, that we know at the State level 
what is going on in our States.
    Mr. Richmond. Got it. Let me--and thank you for that 
answer. Let me just ask one very quick question, and if 
everybody could answer yes or no, it would be very helpful--
have you in your experience so far seen any evidence or 
indication that Russia is trying to interfere in an election in 
our particular State? We can start with Mr. Adams or whoever 
wants to answer, but it would be very helpful if you could just 
give me a yes or no on that.
    Mr. Adams. Respectfully, Representative, I don't feel 
comfortable getting any into anything Classified today. I will 
just go back to my prior comment that our doorknobs are being 
rattled.
    Mr. Richmond. Well, let me ask you this, in your 
experience--and I would assume that, Mr. Adams, you are 
elected, right?
    Mr. Adams. I am.
    Mr. Richmond. I would assume that, Ms. Benson, you are 
elected, right?
    Ms. Benson. Yes, I am.
    Mr. Richmond. So let me just pose this question because 
this is factually correct. Let's assume that if someone Googled 
or went to the website for Antifa, and it was redirected to the 
Adams website, or the secretary of state website for Ms. 
Benson, that that is--and it is--the website for Antifa is 
owned by the Russians--that that is Russian interference in an 
election so that is a factual basis. So, if that was redirected 
to your websites, would you all personally view that as Russian 
interference in your election?
    Ms. Benson. I would say yes. You know, I would just say 
also, you know, past reports have indicated that there have 
been, as we all know, Nation-wide efforts and attempts in 
various states. We have really successfully protected our State 
against any infiltration or effects of efforts or attempts, but 
that doesn't mean----
    Mr. Richmond. Excuse me. The question is still the same. I 
mean, in my district, if someone went to a website that was 
unpopular, let's say the Ku Klux Klan, and it redirected them 
to my website, that is an adverse action to my reelection. So 
my question is, if Antifa website, owned by the Russians, was 
redirected to the Adams campaign or the secretary, Ms. Benson, 
your campaign, would you see that as negative interference----
    Ms. Benson. Yes.
    Mr. Richmond [continuing]. From the Russians?
    Ms. Benson. Yes.
    Mr. Richmond. Mr. Adams.
    Mr. Adams. Yes. That would be a dirty trick. I can't tell 
you that is the thing that keeps me up at night though.
    Mr. Richmond. Well, thank you for that answer.
    Mr. Chairman, thank you for your time, and I yield back.
    Chairman Thompson. Thank you very much. Let me remind the 
Members that when you are not talking, to please mute yourself 
because some of the feedback we are getting is some of you left 
your mikes open.
    The Chair recognizes the gentlelady from New York for 5 
minutes, Ms. Clarke.
    Ms. Clarke. I thank you very much, Mr. Chairman.
    I thank our Ranking Member and panelists for their expert 
witness today. My first question will be directed toward 
Secretary Benson and Ms. Patrick. As State and local officials 
work to administer primaries this spring, many chose to rapidly 
expand access to absentee ballots or vote by mail, including my 
home State of New York.
    As COVID-19 continues to spread, it is imperative that we 
continue expanding these options for the November elections, 
particularly in light of the admonition we have all received 
that COVID may have a resurgence as to whether--changes in 
people move indoors.
    In addition, however, we also need to learn from our 
experience in the spring. New York's challenges implementing 
vote by mail or absentee voting made National news, but New 
York was hardly the only State that struggled. This past 
weekend, The Washington Post reported that more than 500,000 
ballots were rejected in primaries held across 23 different 
States.
    In contrast, some States have successfully conducted their 
elections exclusively by mail for many years.
    So, Secretary Benson, what are some of the reasons that a 
ballot can be invalidated, and how do the rules on assessing 
the validity of a ballot vary by State?
    Ms. Benson. That is such an important question, 
Congresswoman, and that is actually one of the things that 
keeps me up at night as we prepare for November.
    We have seen in our August primary--now, again, 2.5 million 
people voted; 1.6 million voted by mail--just over 10,000 
ballots were unable to be counted that were mailed in, for 
various reasons. Of those 10,694 ballots that were unable to be 
counted, 6,400 of them, the vast majority, couldn't be counted 
because they were sent in prior to election day but received in 
the 2 days that followed. That is a big deal. Those votes 
should have counted. In my view, voters should not be 
disenfranchised for doing everything they are supposed to do if 
another system, particularly the Postal Service, fails to 
deliver their ballot on time. That is why we increased the 
secure drop boxes that we have been putting in place across the 
State, but it is also critical for us that we become a State 
that if something is postmarked by election day but received in 
the day or 2 following, that it should still count.
    Now, the other major reason why those ballots didn't count 
was because they were sent in through the mail, and on the 
signature check on the ballot envelope in which the ballot is 
placed, that voters must sign outside, and that signature is 
then matched with the signature we have on file. In about 2,225 
of those 10,000 ballots, about 2,000 either had a signature 
missing or a signature didn't match. We need to require our 
clerks to follow up when they get a ballot without a signature 
or a mismatch to identify any irregularities or confirm that 
voter's identity and make sure it counts.
    Those are 2 things that we have asked our State legislature 
to act on, but they have not. But if those are acted on by 
November, that will ensure that the vast majority of the 
ballots that previously were unable to be counted will be able 
to be counted in November's election.
    Ms. Clarke. Thank you, Secretary Benson.
    According to the Post article, common processes ``tend to 
disproportionately invalidate ballots from youths--younger 
voters and voters of color.''
    Ms. Patrick, is that true? If so, why is that the case?
    Ms. Patrick. So I think it is absolutely important to know 
that it is true. The No. 1 reason is a late ballot. The No. 2 
reason for rejection across the country has to do with the 
signature being missing, and that could be younger voters not 
signing it, not knowing where to sign, and/or the signature 
changing.
    So we know that signatures mature around the time you are 
25 years of age or older, and so the message to voters is to be 
consistent. So be consistent with the way you sign. If you have 
what's often referred to as like a throw-away signature, that 
is fine, but just be consistent with what signature you are 
using so it doesn't get rejected.
    The other critical element in the late aspect of the 
ballots is that the Postal Service recommends you put your 
ballot in the mail 1 week before it is due, and yet 22 States 
allow for a voter to request their ballot after that time line. 
So--I wrote about this in 2016 called The New Reality of Voting 
by Mail--first-class mail delivery is 2 to 5 days, and so 
voters who are putting their ballots in the mail on Monday or 
on Tuesday on election day, if a postmark does not count in 
that State, their ballot may not count because 1-day delivery 
is something of the past.
    So it is very important that voters not focus on the 
deadlines because those deadlines set them up to fail and set 
false expectations. But, instead, as Secretary Adams 
referenced, focus on the first day to mail and being the first 
person to vote. So don't wait to request it and don't wait to 
return it.
    Ms. Clarke. Mr. Chairman, it is troubling to me that a 
ballot can be rejected because of a relatively minor error or 
due to circumstances outside the voter's control. Members of 
Congress must better understand what we should be asking our 
State and local election officials to make sure that no voter 
is disenfranchised because of a preventable ballot error.
    With that, Mr. Chairman, I thank you for the hearing, and I 
yield back the balance of my time.
    Chairman Thompson. Thank you very much to the lady from New 
York. I too have a real concern on that, and I think the 
committee will get together and see if we can recommend some 
policy changes that we might can get implemented into law to 
have some continuity of how that process works.
    The Chair recognizes the gentlelady from Nevada, Ms. Titus, 
for 5 minutes.
    Ms. Titus. Thank you very much, Mr. Chairman.
    As you know, and I suspect some members of the panel know, 
Nevada just passed in special session AB4, which has to do with 
elections, where everybody who is an active registered voter 
will receive a ballot, and then there are more opportunities to 
vote in person so that you don't have to be overcrowded during 
this pandemic time. Despite that, we are being sued on some 
bogus constitutional grounds. Even our Republican secretary of 
state has asked that the suit be dropped.
    I would ask the panel if they are experiencing this or know 
of other secretaries of state who have seen this kind of 
chilling effect or attempt to delegitimize elections taking 
place through the courts and how they might suggest we deal 
with it.
    Second, Mr. Adams mentioned briefly--and I would like to 
follow up on this--that it is very hard to find poll workers. 
Most of the workers are seniors, and they are reluctant to put 
themselves out there in the time of the virus because they are 
going to be facing a lot of people. What are you doing to find 
poll workers, getting them to show up for testing and be sure 
that they come on election day so you don't have a crisis at 
these polling places?
    Third, many of the arenas around the country are saying--I 
think you've got State Farm Arena, Milwaukee, the Pistons, the 
Dodgers, here in Nevada we have got the new Raiders stadium as 
a place where kind of a massive one-stop voting place on 
election day. Are there problems with that? Do you see that as 
a good thing? How can we make that work?
    Thank you, and I will ask anybody who wants to respond.
    Ms. Patrick. I will jump in very quickly on the cases 
question because I know that the secretaries have answers for 
the other 2, and that is that there are currently more than 200 
cases around election administration around the country. So the 
answer is yes, there are many cases around many options, 
whether it has to do with drop boxes or sending out ballots to 
all voters.
    Ms. Benson. I will add to that because I have been very 
much involved in the effort to enable sports arenas to be 
utilized, in places where it makes sense to do so, for election 
purposes. These could be for voting, for early voting, or as we 
are doing at Ford Field in Detroit, Ford Field, our football 
arena, will be a place where ballots are secured and processed 
and prepared for recounting at the end of the night.
    So in many ways, the sports industry is filling a 
significant need that democracy has this year in, not just 
physical spaces and the need for more physical spaces to vote, 
but also people. So we are proud that here in Detroit--and, 
again, I have been a part of conversations in many markets and 
with election administrators around the country to encourage 
our sports teams to also provide poll workers, give their 
employees the day off, and empower athletes to be voices for 
serving as poll workers. The More Than a Vote effort that 
LeBron James has led that I have been an advisor on since its 
beginning has really been a leader on both of these fronts and 
has been one of the reasons why we have been able to recruit 
close to 10,000 election workers in our State that has enabled 
us to keep in our August primary all of our precincts open and 
also, importantly, fill unexpected vacancies at the last 
minute, when poll workers show up or feel uncomfortable showing 
up on election day. We have recruited and trained hundreds on 
standby, which we used in our August primary, we will have 
ready for November as well.
    The people and the places that make our democracy work are 
really critical needs this year, and it has been gratifying to 
see the way in which many of our industries, in particular our 
sports industry, has stepped up to fill those needs.
    Mr. Adams. Hi, Representative. So I will try to get to all 
3 of your questions if I have time. First, the sports venues 
are a great idea. We used those in Kentucky in our primary. We 
used Kroger Field where the University of Wildcats play 
football. We used our State fair center where we have our State 
fair every year. It is a gigantic venue.
    To be clear, those shouldn't be the only locations in the 
county where you can go vote, but there should be vote centers 
available that are easy to get to. We actually had free 
transportation to these places in the primary. So it is a great 
model.
    With regard to poll workers, after I won in November, I 
testified to the legislature we had a crisis in getting poll 
workers. This is before anyone even heard of coronavirus. It is 
a problem anyway. We have got a whole aging generation of baby 
boomers who are poll workers disproportionately, and they are 
aging out even without regard to COVID-19. So part of my 
challenge has been to try to get younger people to step up, 
millennials and my generation, Gen X, get them to be civic- and 
community-oriented and get them to volunteer as poll workers. 
We have seen some success from that. We have been very active 
in the messaging on that. We opened up a portal to volunteer to 
be a poll worker. We have found thousands of people already in 
5 of our counties tell me they have already got enough poll 
workers in locations to open up all of their precincts on 
election day. So that is pretty good considering it is only 
late August.
    Your last point on litigation, I will tell you, I am an 
attorney, I did election law professionally prior to coming to 
this office, and I have never seen a litigation environment 
like what we had this year. You see a lot of cookie-cutter 
lawsuits around the country. I have been sued 12 times. I have 
been pretty successful so far, but I've been sued 12 times, 
primarily on the--from the left side. You have got litigation 
from right-wing groups, from left-wing groups that are trying 
to get the election rules more to their liking. Look, if they 
have got a good argument, right, but I think that these things 
should be decided democratically. If a court makes up the 
election rules, I don't think the public will accept that.
    I think why it worked so well in Kentucky was is that we 
had a Democratic Governor and a Republican secretary of state 
working through the critical process to write the rules instead 
of it being up to a judge to decide.
    Ms. Titus. Thank you, Mr. Chairman. Thank you for the 
hearing.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentlelady from New Jersey, Mrs. 
Watson Coleman for 5 minutes.
    Mrs. Watson Coleman. I want to thank you very much, Mr. 
Chairman. This has been a very helpful and illuminating 
committee meeting, and I am grateful to hear the testimony of 
all of our excellent witnesses, and thank you.
    It is shameful that we should have this much discussion 
right now how to protect our vote from the shenanigans, 
particularly the undermining that takes place coming out of the 
President's mouth. We should all be trying to figure out, in 
this emergency situation, how to facilitate voting.
    New Jersey is one of those States like Nevada that made a 
decision to send ballots to active voters as opposed to the 
additional step of requesting a ballot and then getting a 
ballot. We are the one--we are also one of the States that is 
being sued, and that is a shameful use, expenditure of the 
President's power and his authority and resources. Doggone it, 
I am angry.
    But here is a question I would like to ask both of the 
secretaries of state and Ms. Patrick. Did both of you testify 
that you can process ballots that come in through early voting 
apparatus prior to election day?
    Ms. Benson. We cannot in Michigan. We cannot begin even 
opening the envelopes until election day morning, which is a 
big issue for us that we have asked our State legislature to 
address.
    Mrs. Watson Coleman. Thank you.
    And you, Secretary Adams, in Kentucky, can you process the 
ballot before election day?
    Mr. Adams. We can. We can process it if we run it through 
the machine, but we don't pull out the machines until the polls 
close is how we avoid any premature disclosure of the results.
    Mrs. Watson Coleman. OK. So that would be the night of the 
election then, right?
    Mr. Adams. That is when we push the button and have the 
total, but weeks----
    Mrs. Watson Coleman. Yes.
    Mr. Adams [continuing]. Before that, we will process the 
ballots.
    Mrs. Watson Coleman. Ms. Patrick, I want to address this 
issue because I, honest to God, believe that we need to know 
the results of the election as quickly as possible to avoid any 
of the sort-of continued illegal activities on the part of this 
administration to impact the outcome or to suppress the vote--
the legitimate vote. So I am--in New Jersey, I want to talk to 
the Governor's office about allowing us to process the ballot 
before election day.
    I want to know, can this be done, Ms. Patrick, in a way 
that secures the vote, ensures the confidentiality, and makes 
sure and ensures that there is no tampering, based upon your 
knowledge in working in this field? Do you have a response to 
that?
    Ms. Patrick. I definitely do. I will say, not only is it 
what the majority of the States do that process absentee and 
mail-in ballots before election day, it is the best practice. 
The Bipartisan Policy Center came out with the task force 
recommendations to allow States to begin processing those 
ballots at least 1 week in advance, and the majority of States 
do.
    So in reality, on election night, for most of the country, 
when the holograms start showing all the results, in the vast 
majority of States, those are, in fact, vote by mail, absentee 
ballots, early in-person ballots. The few precincts that have 
come in right as the polls have closed, those usually come in 
later.
    So there are a handful of very critical States. Secretary 
Benson is one of them, Pennsylvania, Wisconsin, those are 3 
States that do not allow the processing before election day. So 
we will not have those results until later if their States do 
not allow them to begin that pre-processing.
    Mrs. Watson Coleman. Yes. Well, history tells us we would 
like to hear those results as early as possible.
    Could you just answer the question about what are some of 
the mechanisms to secure the vote, to ensure there is no 
tampering, and to mitigate leaks that come out of those who are 
working in that process? I think that is very important for us 
to know.
    Ms. Patrick. You know, absolutely best practices 
established in the securing of the daily totals, because many 
places will start counting a week or 2 weeks in advance, and 
many places will have multiple tabulators. So you never 
accumulate all of those votes until the polls have closed and 
you are able to do so. Also, there are many restrictions. CISA 
has been a great partner in explaining physical security of 
tabulation centers, the securing of the electric components as 
far as what those results are tallied onto every day.
    In Arizona, we had 24/7 cameras on our tabulation centers, 
so anybody could go to on the website and watch that tabulation 
center in the dead of night or when it was very busy during the 
day. So transparency and documentation and chain of custody, 
all elements of our voting process, are critical, and those are 
very well laid out, and those best practices are definitely 
available for all election officials.
    Mrs. Watson Coleman. So for someone like me who wants to 
have that information before I make that call, where do I go 
and get this information? I am concerned about the security, 
the processing, no leaking, no tampering, you know.
    Ms. Patrick. I think that the CISA website has some very 
good structures laid out on exactly what the checklist would be 
for securing those various channels. The EAC, of course, as a 
clearinghouse has additional security information. Then, last, 
reaching out to secretaries of state in the States that don't 
do this already because, more than likely, they have put forth 
what they would like to do in the ability to adopt some of 
those best practices.
    Mrs. Watson Coleman. Thank you.
    Mr. Chairman, I yield back, and thank you for this hearing.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentlelady from California, Ms. 
Barragan, for 5 minutes.
    Ms. Barragan. Thank you, Mr. Chairman, for holding this 
very critical hearing. I am hearing from a lot of constituents 
about the delay of their mail and the concern about election 
security and whether their vote will count, so this is so 
critically important.
    Mr. Dimondstein, thank you so much for being here today. 
Thank you to all our witnesses for being here.
    My questions, Mr. Dimondstein, are directed to you. After 
Postmaster General Louis DeJoy testified earlier this week 
before the Committee on Oversight and Reform, you stated, ``it 
is an indisputable fact mail postal customers have witnessed a 
degrading and slowing of mail service since Postmaster General 
Louis DeJoy instituted changes in mid-July.''
    What have been the consequences for customers of the 
slowing of mail service?
    Mr. Dimondstein. Well, thank you, Congresswoman. Can you 
hear me OK?
    Ms. Barragan. I can.
    Mr. Dimondstein. OK. Because my computer is saying 
something funny.
    The consequences for the customers is that a lot of vital 
supplies, from medicines to our veterans and seniors, financial 
transactions, we have reports from customers they have had late 
fees because their bills didn't arrive in time. We have had 
reports from customers that mortgage payments didn't arrive on 
time. We definitely have had reports from both within the VA, 
kind-of whistleblower reports, but also some from veterans 
themselves.
    We have concrete--and it is largely anecdotal, but it is 
coming from all over the country, where our own postal workers 
have researched and tried to find out what has happened to 
people's mail and found it stuck in the system. So it needs to 
be fixed and fixed quickly, and it can be fixed.
    Ms. Barragan. What changes in the postal operations do you 
attribute the degradation and slowing of the mail service you 
and your members have observed?
    Mr. Dimondstein. I think it is hard to identify one thing, 
but I would put at the top of the list the change in 
transportation, because now this focus, and almost a fetish, on 
the truck has to leave on time from a sorting location facility 
for carry unit and back. So at 6 a.m. in the morning, it has 
got to go at 6 a.m. or a few minutes earlier because it looks 
better on paper.
    But the real life in the post office is we want to get all 
the mail in that truck. So, to me, it is not important, to the 
customer it is not as important, whether there is a 97 percent 
on-time rating now with the trucks leaving and arriving on 
time. The question is, is your mail on that truck or did it 
need to wait another 7 or 8 minutes for everything to get 
loaded on.
    Also, there is a constant need for extra trips because 
sometimes mail doesn't fit on trucks. Those are being canceled, 
and the system backs up pretty quickly. So those are things.
    You also need enough work hours, however they are worked, 
to make sure that the work gets done.
    Ms. Barragan. One of the things that I have been hearing is 
that some customers in my district get no mail on 1 day or 2 
days, and that is something new and different for them as 
opposed to just a delay. Would you say that is because of the 
cut that was done to hours, in that maybe a letter carrier 
didn't get to them?
    Mr. Dimondstein. On that, I can't answer. We don't actually 
represent the letter carriers, but it actually probably goes 
back to the transportation as well, because if that sorted mail 
doesn't get in that truck from the processing sorting 
facilities, then that letter carrier cannot get it to the 
customers.
    So a lot of it comes back to the transportation issue and 
making sure, again, that enough hours are worked to get the 
work done.
    Ms. Barragan. OK. In a statement released on August 18, the 
Postmaster General said, ``there are some long-standing 
operational initiatives that predate my arrival at the Postal 
Service that have been raised as areas of concern as the Nation 
prepares to hold an election in the midst of a devastating 
pandemic. To avoid even the appearance of any impact on 
election mail, I am suspending these initiatives until after 
the election is concluded.''
    Do you know what the long-standing operational initiatives 
are that Mr. DeJoy was referring to in his statement and how 
long before his arrival at the Postal Service did they begin?
    Mr. Dimondstein. No, I don't. I believe he was referring to 
specifically the reduction of mail sortation machines and the 
blue boxes, but I honestly don't know.
    Ms. Barragan. OK. The Postmaster General said that overtime 
has and will continue to be approved as needed. Was overtime 
cut or eliminated before August 18? If so, what changes have 
you seen in the approval of overtime since Mr. DeJoy issued his 
statement?
    Mr. Dimondstein. The best we can tell, Congresswoman, it 
was put into writing that there was such directives, but it was 
implemented very unevenly. In some areas, overtime was still 
worked. In some areas, it wasn't. But even where overtime was 
worked, often the total hours of work was reduced. The key at 
the end of the day, to me, is not how the hours get worked, 
whether it is--the Postal Service is understaffed, so they can 
hire, they can work overtime. We are in a pandemic. We have had 
40,000 postal workers quarantined. Somebody has to make up 
those hours as well.
    So what we see is still fairly significant levels of 
overtime in some areas and in some areas where it has been 
banned. Where it has been banned, we know for sure that that is 
having an impact on mail backing up.
    Ms. Barragan. Well, thank you, and thank you to the men and 
women of the Postal Service.
    With that, I yield back.
    Mr. Dimondstein. Thank you.
    Chairman Thompson. Thank you very much. The gentlelady's 
time has expired.
    The Chair recognizes the gentlelady from Florida, Mrs. 
Demings, for 5 minutes.
    Chairman Thompson. Is Mrs. Demings on or has she left?
    Mrs. Demings. Mr. Chairman, can you hear me?
    Chairman Thompson. We got you now.
    Mrs. Demings. OK. Let's restart the clock, please. Thank 
you.
    Thank you, Mr. Chairman, and thank you to all of our 
witnesses.
    I just want to start here, the U.S. Postal Service, as we 
heard earlier, has a 91 percent approval rating. I think that 
sends a pretty strong message about the job that these men and 
women do and have done for a lot of years. But we are talking 
about today the Postal Service being able to do their job and 
voters being able to vote during a public health pandemic.
    I am somewhat disappointed that it appears some of my 
colleagues on this committee seem more concerned about what 
American voters may do than they have showed any concern about 
Russia interference, past or present, in our elections.
    Based on the President's own admissions, as the Chairman 
pointed out, I am totally convinced that this President is 
trying to undermine the 2020 election and sees the crippling of 
the United States Postal Service as a part of that strategy. 
Every Member on this committee should be concerned about that.
    Ms. Patrick, there was a discussion earlier about 
disinformation. In your testimony, you identified the 
increasing role of philanthropy in analyzing election data and 
establishing best practices and countering misinformation to 
make sure that honest election information is moving forward. 
As you know, in the Election Security Act, led by Chairman 
Thompson, it would require the President to create a bipartisan 
commission and a National strategy to protect U.S. democratic 
institutions against cyber attacks, influence operations, 
disinformation campaigns.
    Could you give me your opinion about establishing such a 
commission?
    Ms. Patrick. Certainly. So I am predisposed to appreciate 
commissions. I did serve on President Obama's Presidential 
Commission on Election Administration. As long as the 
commission is put forth in a truly bipartisan, nonpartisan way, 
and if the Members are selected because of their expertise and 
not because of who they maybe know, that is the real key to 
that sort of a commission.
    So when we had the PCEA, we came out with a report, and 
often these commission reports just sit on a shelf and grow 
dust and get dusty. But because of the Members of the 
committee, because the recommendations were practical and 
actionable and held everyone accountable, whether it was 
something that the Federal Government needed to do, the State 
government, or something that, in fact, a local official could 
pick up and implement on their own volition, it was very well 
received. To this day, I think many of the recommendations we 
suggested are, in fact, why we are in a better place than we 
were, you know, so many years ago--or not that many years ago, 
rather.
    So I think as long as the Members of the commission are----
    Mrs. Demings. Bipartisan and bring expertise.
    Thank you so much, Ms. Patrick.
    To Mr. Dimondstein, you know, a lot of the discussion 
centers around the timely delivery and return of ballots if we 
are going to be able to make this work. You know, there were 
some challenges during the primary, are we going to be able to 
make this work during the general election.
    On the one hand, some Postal Service encourages States to 
send ballots at the first-class mail rate, others at the 
marketing mail rate. But the bottom line is, I know there has 
been discussion about getting the ballots returned as quickly 
as possible. Some have even talked about election mail logos 
that would clearly identify ballots that needed to have a 
priority status.
    Could you talk a little bit about what is actually going on 
on the ground and what direction you have been given or your 
workers have been given from the U.S. Postal Service as it 
pertains to this issue?
    Mr. Dimondstein. Well, I think the most encouraging sign is 
that the new Postmaster General, under oath before Congress, 
did commit that all ballots will be treated as first-class 
mail, no matter what rate of mail they are mailed at. That is 
an encouragement.
    Mrs. Demings. He did commit that?
    Mr. Dimondstein. Yes.
    Ms. Demings. That is encouraging. What was the practice--he 
just said that theory a few days ago. What has been the 
practice on the ground as it pertains to ballots and their 
first class----
    Mr. Dimondstein. Ballots--you know, the Postal Service 
doesn't run elections; the States do. The Postal Service does 
try to work with States on ballot design. That helps a lot. 
They try to work with States on using intelligent bar code 
systems which tracks a ballot to the voter, back from the 
voter. So that is where you have to have the resources and the 
commitment from the National leadership of management at the 
Postal Service and the relationship with the States that some 
of the secretaries of state have testified to.
    On the ground, once the ballots start falling, then you 
have to have good training of the employees, the people that we 
represent and the other postal unions do----
    Mrs. Demings. Have you received any directives from the 
Postmaster General since this hearing last week?
    Mr. Dimondstein. No.
    Ms. Demings. OK.
    Mr. Dimondstein. No. We haven't gotten any directives yet, 
but we do have a joint task force with the 4 postal unions and 
postal management on this very issue that I think has its first 
meeting on September 3 or somewhere thereabouts. So we are 
going to be very proactive as postal workers, because we have 
always moved heaven and Earth to make sure those ballots get 
there and----
    Ms. Demings. Thank you so much. Mr. Chairman, I yield back.
    Chairman Thompson. Thank you very much.
    I thank the witnesses for their valuable testimony and the 
Members for their questions.
    Let me also say to our witnesses, you have been very, very 
enlightening to the Members, as well as the public, about the 
confidence in our election system, that this system of picking 
our leaders is so important to our democracy. I want to 
personally thank you for you sharing that that system of 
election is a system where local people participate, local 
individuals work the polls and, for the most part, our system 
of mail-in balloting works. All that we have been hearing from 
the White House and other places about how fraught with fraud 
and abuse this system is, the testimony today reflects just the 
opposite.
    So part of our oversight responsibility is to get to the 
facts. Again, I thank you for helping us pursue accurate 
information.
    Members of the committee may have additional questions, 
however, for the witnesses, and we ask that you respond 
expeditiously in writing to those questions.
    Without objection, the committee's record shall be kept 
open for 10 days.
    Hearing no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 5:40 p.m., the committee was adjourned.]

                                 <all>
</pre></body></html>
